                                       SOCIAL SECURITY
MEMORANDUM

Date:      December 7, 2011                                                   Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration Cost Allocation Process (A-15-10-20151)


           We contracted with Grant Thornton LLP (Grant Thornton) to perform four reviews
           related to the Social Security Administration’s (SSA) Cost Analysis System (CAS) and
           Cost Allocation Methodology. The attached final report presents the results of Grant
           Thornton’s assessment of the SSA cost allocation process.

           Grant Thornton’s objectives were to:

           1. Determine whether the data collected and used by SSA management in the cost
              allocation process were valid, complete, and accurate by testing the data inputs to
              CAS.
           2. Review and test internal controls over the cost allocation feeder systems and
              applications used in CAS, as well as the main processes in CAS, to determine
              whether they were complete and reliable.
           3. Review the General Computer Control environments applicable to CAS.
           4. Review and test regularly disseminated data output reports to determine whether
              they were accurate, complete, and reliable and whether CAS’ overall purpose was
              met. Reports reviewed reflected data after input, allocation, and distribution.
           5. Determine whether the cost allocation methodology SSA management used
              complied with the Statement of Federal Financial Accounting Standards No. 4,
              Managerial Cost Accounting Concepts and Standards for the Federal Government.

           We are aware that SSA does not intend to provide comments until we issue the last of
           the four CAS reports. As such, please provide within 60 days of release of the final
           CAS report, The Social Security Administration’s Cost Assignment Methodology Review
           (A-15-10-20152), a corrective action plan that addresses each recommendation. If you
           wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                  Patrick P. O’Carroll, Jr.
           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 THE SOCIAL SECURITY ADMINISTRATION
      COST ALLOCATION PROCESS

    December 2011    A-15-10-20151




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
MEMORANDUM

Date:   December 2, 2011

To:     SSA Office of the Inspector General

From:   Grant Thornton, LLP

Subject: Audit of the Social Security Administration’s Cost Allocation Process
        (A-15-10-20151)


        We are pleased to report the results of our audit of the Social Security
        Administration (SSA) Cost Analysis System (CAS) audit. The objectives were to:

        1. Determine whether the data collected and used by SSA management in the
           cost allocation process were valid, complete and accurate by testing the data
           inputs to CAS;
        2. Review and test internal controls over the cost allocation feeder systems and
           applications used in CAS as well as the main processes in the CAS, to
           determine if they were complete and reliable;
        3. Review the General Computer Control environments applicable to CAS;
        4. Review and test regularly disseminated output reports to determine whether
           they were accurate, complete, and reliable and whether CAS’ overall purpose
           was met. Reports reviewed reflected data after input, allocation, and
           distribution.
        5. Determine whether the cost allocation methodology used by SSA
           management complied with the Statement of Federal Financial Accounting
           Standards No. 4, Managerial Cost Accounting Concepts and Standards for
           the Federal Government.

        We appreciate the support provided to us in completing this review.




        John Short
        Partner
                                                Executive Summary
The Social Security Administration (SSA) has responsibility for stewardship of the four
Trust Funds for which it provides administrative support: the Retirement and Survivors
Insurance Trust, Disability Insurance Trust, Hospital Insurance Trust, and
Supplementary Medical Insurance Trust. As part of this stewardship objective, the
Commissioner of Social Security established a cost allocation process in July 1973.
This cost allocation process was based on the policy that administrative costs for the
Trust and general fund programs, as well as reimbursable work performed by SSA for
outside organizations, would be allocated based on cost-sharing principles. A central
part of SSA’s cost allocation process is its Cost Analysis System (CAS).
This report documents our audit findings, conclusions, and recommendations. This
report is the third in a series of four related to SSA’s CAS, cost allocation process, and
cost allocation methodology. The first report, A-15-10-20149, Cost Analysis
Background Report and Viability Assessment, documents the historical background of
CAS and a system viability assessment. The second report,
A-15-10-20150, Office of Disability Adjudication and Review (ODAR) Cost Allocation
Process, discusses ODAR’s cost allocation process.

OBJECTIVES
The objectives of the SSA cost allocation process audit were to:

1. Determine whether the data collected and used by SSA management in the cost
   allocation process were valid, complete, and accurate by testing the data inputs to
   CAS.
2. Review and test internal controls over the cost allocation feeder systems and
   applications used in CAS, as well as the main processes in CAS, to determine
   whether they were complete and reliable.
3. Review the General Computer Control environments applicable to CAS.
4. Review and test regularly disseminated data output reports to determine whether
   they were accurate, complete, and reliable and whether CAS’ overall purpose was
   met. Reports reviewed reflected data after input, allocation, and distribution.
5. Determine whether the cost allocation methodology SSA management used
   complied with the Statement of Federal Financial Accounting Standards (SFFAS)
   No. 4, Managerial Cost Accounting Concepts and Standards for the Federal
   Government.

BACKGROUND
SSA uses a cost allocation process to allocate administrative costs to Trust and general
fund programs administered by the Agency and reimbursable work performed by SSA
for outside organizations. CAS is a key component of the cost allocation process. The


The Social Security Administration Cost Allocation Process (A-15-10-20151)             i
                         1
Social Security Act authorizes SSA to allocate administrative costs to the four Trust
Funds. The cost allocation process determines actual administrative costs chargeable
to Trust Fund activities, general fund programs, and other reimbursable programs.

RESULTS OF REVIEW
The audit team tested CAS work sampling data inputs. We noted instances where data
were incorrectly uploaded into CAS feeder systems. We also found that many locations
did not maintain historical work sampling records. Samples were not consistently
performed, and no instances of peer or management review were noted. For the other
controls tested related to CAS applications, we identified no exceptions.

Our analysis of SSA’s entity-level control environment disclosed three deficiencies that,
when aggregated, rose to the level of a significant deficiency. The risks associated with
these control deficiencies have a direct impact on the integrity of both the CAS and
District Office Work Sampling (DOWS) applications and database environments since
both are mainframe-based applications. For the other CAS-related controls tested, we
identified no exceptions.

We analyzed CAS reports, after input, after allocation, and after distribution to help
assess reliability and consistency of cost allocation. We determined that the cost and
workload information remained consistent, and CAS reports provided information on all
cost and workload data elements found in a well-established cost allocation system.

Finally, we assessed SSA’s cost allocation methodology for compliance with SFFAS
No. 4. Although SSA’s cost allocation methodology adheres to many of the SFFAS No.
4 requirements, we noted issues of noncompliance on critical requirements, which
caused us to assess SSA’s overall compliance as ‘partial.’

CONCLUSION AND RECOMMENDATIONS
We concluded the following:

•     General and application controls specifically related to the CAS and DOWS
      applications were operating effectively.
•     Data in CAS outputs reports were consistent on a year-to-year basis, and no
      unusual spikes or outliers were noted.

However, we identified the following findings that need to be addressed.

•     The internal controls and main processes related to work sampling did not ensure
      the completeness and reliability of CAS data.


1
    The Social Security Act § 201(g)(1), 42 U.S.C. § 401(g)(1).


The Social Security Administration Cost Allocation Process (A-15-10-20151)           ii
•   We assessed the SSA’s cost allocation methodology as “partially compliant" with
    SFFAS No. 4. Although SSA complied with many of the requirements, we noted the
    following.

    o SSA’s cost allocation methodology did not assign certain shared workload costs
      through (a) direct trace; (b) cause-and-effect; or (c) reasonable and consistent
      allocation of costs to accurately reflect the work effort involved. That is, the use
      of benefit outlays as the basis of assigning shared costs does not manifest a
      suitable causal relationship between resources and outputs.
    o CAS work sampling input data were often inaccurate.
    o SSA’s cost allocation methodology did not reconcile budgetary to proprietary
      methods of allocation at a detailed level.
    o SSA’s cost allocation methodology did not use actual expenses in assigning
      costs to reporting periods and outputs.
    o There were no procedures to periodically revisit, update, and document
      significant changes to the cost allocation methodology.
    o SSA’s cost allocation methodology and processes were not always adequately
      documented.

We were unable to conclude whether CAS results were correctly stated because of
underlying data concerns and the noncompliance issues related to SFFAS No. 4.

We recommended that SSA:

1. Enforce and enhance policies and procedures, such as secondary reviews or
   reconciliations of tally sheets to CAS submissions, to ensure that workload sampling
   inputs are accurate.
2. Discontinue the use of benefit outlays as a means of allocating shared costs to
   program activities, including the Trust Funds, and identify cost assignment methods
   that manifest suitable causal relationships between the work SSA performs and its
   programs.
3. Update policies and procedures to ensure the data collection process is consistently
   performed and reviews are conducted timely.
4. Reconcile the budgetary accounting basis used for cost allocation with the
   proprietary or accrual basis of accounting at a detailed level and determine if an
   adjustment to the cost allocation percentages is warranted.
5. Use actual operating expenses to determine the distribution and allocation of costs
   to workloads and program activities.
6. Periodically revisit and update the cost allocation methodology, as necessary, to
   account for the implementation of new legislation or revised accounting standards
   and significant changes in SSA business processes or technology. Appropriate
   decision papers should be prepared to address each significant change.



The Social Security Administration Cost Allocation Process (A-15-10-20151)            iii
7. Periodically review and update, as necessary, work measurement, CAS, and Inter-
   Trust Fund Adjustment documentation.

AGENCY COMMENTS

SSA determined that because of the interrelationship of all four CAS reviews, it was
premature to comment or respond to Grant Thornton’s recommendations. Once SSA
receives the results of all CAS reviews, it will provide consolidated comments and
responses to the recommendations.




The Social Security Administration Cost Allocation Process (A-15-10-20151)         iv
                                                                      Table of Contents
                                                                                                               Page

INTRODUCTION ..................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 5

CONCLUSIONS AND RECOMMENDATIONS ..................................................... 18

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Cost Analysis System Cost Allocation Output Data
             Consistency Analysis

APPENDIX D – Cost Allocation Data Completeness Analysis

APPENDIX E – Assessment of Social Security Administration Cost
             Allocation Methodology Compliance with Statement of
             Federal Financial Accounting Standards No. 4

APPENDIX F – Cost Analysis System Flowchart

APPENDIX G – Agency Comments




The Social Security Administration Cost Allocation Process (A-15-10-20151)
                                                                           Introduction
The Social Security Administration (SSA) has responsibility for stewardship of the four
Trust Funds for which it provides administrative support: the Retirement and Survivors
Insurance (RSI) Trust, Disability Insurance (DI) Trust, Hospital Insurance (HI) Trust, and
Supplementary Medical Insurance (SMI) Trust. As part of this stewardship objective,
the Commissioner of Social Security established a cost allocation process in July 1973.
This cost allocation process was based on the policy that administrative costs for the
Trust and general fund programs, as well as for reimbursable work performed by SSA
for outside organizations, would be allocated based on cost-sharing principles. A
central part of SSA’s cost allocation process is its Cost Analysis System (CAS).

OBJECTIVES

The objectives were to:

1. Determine whether the data collected and used by SSA management in the cost
   allocation process were valid, complete, and accurate by testing the data inputs to
   CAS.
2. Review and test internal controls over the cost allocation feeder systems and
   applications used in CAS, as well as the main processes in CAS, to determine
   whether they were complete and reliable.
3. Review the General Computer Control environments applicable to CAS.
4. Review and test regularly disseminated data output reports to determine whether
   they were accurate, complete, and reliable and whether CAS’ overall purpose was
   met. Reports reviewed reflected data after input, allocation, and distribution.
5. Determine whether the cost allocation methodology SSA management used
   complied with the Statement of Federal Financial Accounting Standards (SFFAS)
   No. 4, Managerial Cost Accounting Concepts and Standards for the Federal
   Government.

BACKGROUND

The SSA cost allocation process determines actual administrative costs chargeable to
Trust Fund activities, general fund programs, and other reimbursable programs. A
major portion of this process is performed by CAS, which integrates data from payroll,
Agency work measurement systems, and SSA’s core financial accounting system and
assigns costs to specific program activities and workloads. CAS provides workload,
workyear, and administrative cost data at the Agency and major component 1 levels.



1
    Components are closely aligned with specific SSA missions and funding allocations.


The Social Security Administration Cost Allocation Process (A-15-10-20151)               1
CAS uses point-in-time work sampling at the field offices (FO), disability determination
services (DDS), and program service centers (PSC) to allocate the time spent on
various workloads. In addition to providing the raw data that feed into CAS, SSA
management uses work sampling to

      •   monitor workloads;
      •   determine workload and resource distribution;
      •   plan recruiting, training, and staff development; and
      •   support strategic planning.

SSA's policy for allocating administrative costs 2 was initially established by a 1973
Commissioner's Decision. 3 The Decision states that costs related solely to one
program will be assigned exclusively to that program. Further, it specifies that costs
benefiting multiple programs will be equitably distributed among those programs, based
on the proportionate value of those shared costs to each benefiting program. CAS was
designed to account for administrative costs by program activity in accordance with this
policy. CAS provides this cost information at the Agency level and for SSA's principal
component organizations. The original CAS became operational in 1976 4 and has been
in service for about 35 years.

In 1990, the Federal Accounting Standards Advisory Board (FASAB) was created to
establish consistent accounting standards and principles for Federal entities. FASAB’s
mission is to promulgate Federal accounting standards after considering the financial
and budgetary information needs of citizens, congressional oversight groups, and
executive agencies as well as the needs of other users of Federal financial information. 5
In 1995, FASAB established SFFAS No. 4, Managerial Cost Accounting Concepts and
Standards for the Federal Government, which provides Federal agencies guidance on
reporting reliable and timely information on the full cost of programs, activities, and
outputs.

Figure 1 shows SSA’s cost allocation methodology. As presented, there are five major
levels (steps) in the methodology. The following points describe the purpose of each
level.

•     Level 0: This step provides SSA with the opportunity to vet the data that will go into
      CAS. Analysts in the operational and staff components and the Office of Cost
      Analysis and Systems Support (OCASS) are able to view input data in relation to

2
 SSA Administrative Instructions Manual System (AIMS); Financial Management Manual, Chapter 04
Cost Analysis, Instruction 02, SSA Cost Allocation Policy.
3
    SSA, Face Sheet for Acting Commissioner’s Action Meeting.
4
    SSA Cost Analysis Manual (CAM), Chapter 2-00, Section 2-00-10.
5
    FASAB: Pronouncements as Amended, Version 8 (06/2009, Page 1).


The Social Security Administration Cost Allocation Process (A-15-10-20151)                       2
    historic norms. Outliers are investigated to determine whether they represent data
    anomalies or data errors.
•   Level 1: This step expresses SSA administrative costs in terms of the support the
    various Trust and general fund accounts receive.
•   Levels 2 and 3: These steps are part of the same, overall process and express SSA
    administrative costs in terms of direct workloads.
•   Inter-Trust Fund Adjustment (ITFA): The ITFA adjusts the charges to the Trust
    Funds to account for the following.

    o Sequential shared workload for RSI and DI: This factors the lifetime RSI
      benefits that will be received by persons who were originally enrolled under the
      DI program. For many beneficiaries, RSI entitlement is established during the
      DI determination process, and a portion of DI benefits will later be converted to
      RSI benefits. The rationale for this is that entitlement for disability becomes
      entitlement for retirement benefits upon conversion from DI to RSI at full
      retirement age. Thus, the two Trust Funds should share these “sequential
      workload” costs. The amount of the full retirement benefit is also favorably
      impacted by the establishment of disability.
    o Work not required by one or more of the programs, especially HI and SMI:
      Certain work conducted in conjunction with RSI and DI claims and to establish
      or continue RSI and DI entitlement is not required by other programs, especially
      Medicare. For example, the retirement test is a factor in determining whether
      certain applicants are entitled to receive RSI benefits rather than have them
      totally or significantly offset; it has no bearing, however, on entitlement to HI and
      SMI.
    o Concurrent shared workload that also benefits HI and SMI: Costs of certain
      workloads incurred during the claims taking and maintenance processes
      assigned to the RSI Trust Fund through CAS also benefit the HI and SMI Trust
      Funds, and certain workloads assigned to the DI Trust Fund through CAS also
      benefit RSI, HI, and SMI. The HI and SMI programs benefit from work
      conducted on the RSI and DI programs and therefore per SSA policy should
      share the cost. For example, costs for the workload, RSI Nondisabled Claims,
      are initially allocated almost entirely to the RSI Trust Fund through CAS, with the
      remainder allocated primarily to DI and SSI. This workload captures the activity
      of a claimant’s initial filing for Social Security benefits. This initial filing process
      requires that SSA establish the person’s identity, age, insured status, and other
      basic information. Since this information will also be used to establish the
      person’s entitlement to Medicare, SSA allocates a portion of these initial costs to
      the HI and SMI Trust Funds. A portion of the RSI workload cost is assigned to
      HI and SMI, and a portion of DI workload cost is assigned to RSI, HI, and SMI
      because assumptions related to the HI/SMI benefit of these particular workloads
      are not programmed into CAS.




The Social Security Administration Cost Allocation Process (A-15-10-20151)                  3
    o Allocation equity: This final determinant adjustment weights the cost of shared
      workloads in proportion to the current value of benefit outlays. In SSA’s view,
      this takes into account the relative value to the average enrollee of enrollment
      under each of the programs and funds and thus increases the equitableness of
      the allocations.
                       Figure 1: SSA Cost Allocation Methodology
                                                                               Inter-Trust
         Level 0            Level 1           Level 2           Level 3
                                                                                  Fund
      Pre-allocation       Allocation       Distribution      Distribution
                                                                               Adjustment
      Organize,         Allocate all      Distribute        Distribute       Establish final
      format, and       workyears,        Category 2        Category 1B      administrative
      validate input    payroll, and      (Workload         and 5            cost
      data              non-personnel     related),         workyears to     allocations to
      Associate         costs to SSA      Category 3        Category 1       the 4 Trust
      leave             program           (Indirect)        workloads        Funds, based
      workyears and     activities        workyears, and                     on shared
      payroll costs                       Category 7                         work effort and
      with regular                        costs to Direct                    perceived
      workyears                           (Category 1,                       allocation
                                          1B) workloads                      equity




This document is a summary of our work and our resulting conclusions and
recommendations.




The Social Security Administration Cost Allocation Process (A-15-10-20151)                     4
                                                     Results of Review
Audit Objective 1: Determine Whether the Data Collected and Used by SSA
Management in the Cost Allocation Process Were Valid, Complete, and Accurate
by Testing the Data Inputs to CAS.
SSA allocates the majority of its cost through periodic work sampling. In the FOs, DDSs
and PSCs, samples are randomly performed. Each employee is sampled once during
the applicable period for a specific point in time. For example, the survey would
determine the activity the employee was performing at 1:30 p.m. Sampling relies on the
premise that a definable number of random observations taken from a universe will
provide a reasonable representation of that universe’s makeup.

SSA operates several work sampling systems, each of which covers a major segment
of SSA operations. The District Office Work Sampling (DOWS) covers approximately
1,300 SSA FOs nationwide. The sampling methodology under the DOWS system is
designed to ensure that each employee in every FO is sampled once per workweek.
The State Agency Work Sampling (SAWS) covers the DDS. Each employee in every
DDS is sampled three times daily for 5 consecutive workdays during 1 workweek of
each fiscal quarter. PSCs and Immediate Claims Taking Units (ICTU) in those PSCs
use the Program Centers Action Control System work sampling system. Under this
methodology, each employee in the PSCs is sampled once each workday. However,
SSA does not require that this information be maintained. Therefore, the audit team
was unable to select a statistical sample that would allow it to calculate an error rate.

The audit team tested the work sampling data inputs in CAS at 15 FOs, 3 DDSs, and
3 ITCUs in SSA’s PSCs.

Of the locations visited, we compared sampling tally sheets to input reports to determine
whether the sampling results were accurate, valid, and complete. The results of our
input testing at the FOs and DDSs were as follows.

•   Data were incorrectly input into the work sampling system at 7 of 15 FOs visited and
    the 3 DDSs visited.
•   Two of 15 FOs did not maintain historical records, which prohibited us from
    retroactively testing prior sample submissions.

We noted numerous data input discrepancies regarding the sampling tallies at the FOs
and DDSs. Data collected via the sampling process were not deemed valid and
accurate.

In addition to the input testing performed at the FOs, DDSs, and ICTUs, we performed
input testing of two Central Office components:




The Social Security Administration Cost Allocation Process (A-15-10-20151)                  5
•   Office of the Deputy Commissioner for Budget, Finance and Management (DCBFM)
    directs the administration of comprehensive SSA management programs including
    budget, acquisition and grants, facilities management, and publications and logistics.
    It provides an administrative role and consists of three subcomponents.
•   Office of the Deputy Commissioner for Quality Performance (DCQP) renders formal
    advice and recommendations to SSA executives on a range of issues relating
    specifically to in-line and end-of-line quality performance management in each of the
    SSA's core business areas. It provides a more operational role and consists of five
    subcomponents.

Based on CAS documentation, we gained an understanding of how the above Central
Office components allocated their costs. Many of the Central Office components
allocated their administrative costs in the same proportions as components that used
sampling results. Based on our understanding of each component’s process, we
recalculated the June 2010 allocation percentages for DCBFM and DCQP by applying
their costs to the established allocation rates or sampling results. We then compared
our recalculated results to allocated amounts in CAS. We noted no significant
differences. Data collected for, and used by, Central Office components were complete,
valid, and accurate.

Audit Objective 2: Review and Test Internal Controls over the Cost Allocation
Feeder Systems and Applications Used in CAS as well as the Main Processes in
CAS to Determine Whether They Were Complete and Reliable.
We reviewed the policies, procedures and internal controls related to the data integrity
of those input processes. The results of our review and test of internal controls over
CAS feeder systems are as follows.
•   Samples were not consistently performed. At some locations, we noted employees
    conducted the sample by walking through the office, observing, and/or asking what
    task was being worked on by each employee. Other times, we noted that the
    employee conducting the sample used email or instant messaging to obtain the
    sample results. This is in direct contrast to internal guidance established per SSA’s
    Management Information Manual, Chapter 2000, which states that the integrity of
    the District Office Workload Report/DOWS reporting system must be assured with
    the highest degree of accuracy.
•   We noted no instances of peer or management review of the tally sheets or input
    screens before submission. Based on our examination of tally sheets and workload
    inputs, data were incorrectly input into the work sampling system at 7 of 15 FOs and
    the 3 DDSs visited.

For the Central Office components, OCASS performed a monthly balancing of various
reports. This balancing report compares various CAS reports for each Central Office
component monthly where results are reconciled back to inputs. We examined the
June 2010 OCASS balancing report and vouched data to supporting documentation and
found no exceptions.


The Social Security Administration Cost Allocation Process (A-15-10-20151)                 6
Audit Objective 3: Review the General Computer Control Environments
Applicable to CAS.
We performed a full-scope application controls review of the CAS and DOWS systems.
A full-scope application controls review involves tailored application controls testing as
prescribed in the Government Accountability Office (GAO) Federal Information System
Controls Audit Manual (FISCAM) and focuses on the access controls, data input,
processing, and interface controls. As part of the Fiscal Year (FY) 2010 Chief Financial
Officers Act financial statement audit performed by Grant Thornton, LLP, we analyzed,
through inquiry, inspection, and observation, the documentation SSA provided to
assess the reliability of the data maintained in the CAS application. See Appendix F for
a CAS flowchart. Our analysis of the Agency’s entity-level control environment during
the FY 2010 financial statement audit disclosed three deficiencies that, when
aggregated, rose to the level of a significant deficiency. Those deficiencies were as
follows.

1. Policies and procedures to periodically reassess the content of security access
   profiles had not been complied with consistently throughout the Agency.
2. Security permissions provided to some employees and contractors exceeded the
   access required to complete their job responsibilities.
3. Certain mainframe configurations increased the risk of unauthorized access to key
   financial data and programs.

The risks associated with these control deficiencies have a direct impact on the integrity
of the CAS and DOWS application and database environments since both are
mainframe-based applications. For the other controls tested related to CAS and DOWS
applications, we identified no exceptions.

Audit Objective 4: Review and Test Regularly Disseminated Data Output Reports
to Determine Whether they were Accurate, Complete, and Reliable and Whether
CAS’ Overall Purpose was met. Reports Reviewed Reflected Data After Input,
Allocation, and Distribution.
CAS output reports help end-users ensure data are processed correctly. The six
reports we reviewed for March, July, and August 2010 were as follows.

   1. Pre-input Cost Analysis (PICA) – Presents a summary of raw data from several
      SSA systems by organization, component workload, and month to enable end-
      users to assess operational results.
   2. Level 0 – Presents input-level workload processed counts, workyears, and
      average weights by workload/function and costs by CAS sub-object class.
   3. C1 – 1235 - Presents category workyears, payroll obligation, and payroll costs
      per workyear for workload and staff functions by program activity for SSA
      components.




The Social Security Administration Cost Allocation Process (A-15-10-20151)               7
   4. C2 – 15A Detail - Presents cumulative monthly processed counts, workyears,
      payroll obligations and other object costs, unit costs, cost per workyear, and
      production rates by direct workload, program activity, and SSA component. It
      presents separately, staff workyear, cost expenditures, and associated other
      object costs by staff function.
   5. C1 – 67 - Presents obligations by program activity, component, and major sub-
      object class. This report is used to monitor adherence to appropriation and
      allotment limits and SSA’s internal limitations and component operating or
      spending plans.
   6. S3 – 1 – Presents total workyears and costs, including staff, by direct workload
      and program activity for components and SSA. This report provides a
      comprehensive source of total and unit cost data by direct workload.

To test for data consistency, we analyzed the information in the output reports for
sudden fluctuations in data. In addition, we cross-referenced the major data elements
in each of the reports and total cost information from the Social Security Online
Accounting and Reporting System (SSOARS), SSA’s accounting system of record, to
ensure the figures agreed. For the specific data reviewed and the analysis performed
relating to data consistency, refer to Appendix C.

To test for data completeness, we compared the data elements tracked by CAS to data
elements typically found in a well-established and comprehensive cost assignment
system. The purpose of the examination was to confirm that the output reports had
captured and provided a complete picture of total workload and cost. See Appendix D
for the specific data reviewed and analysis performed relating to data completeness.

We determined that the cost and workload information remained consistent over the
past 9 years with no unexplainable data spikes or drops. Our comparison of data at the
aggregate level showed the same values at all phases of the calculation process. See
Appendix C for specific details. In addition, the CAS reports provided similar types of
cost and workload data elements found in a well-established cost assignment system.

Audit Objective 5: Determine Whether the Cost Allocation Methodology SSA
Management Used Complied with SFFAS No. 4, Managerial Cost Accounting
Concepts and Standards for the Federal Government.
We reviewed the five underlying standards of SFFAS No. 4, identified the specific
requirements for each standard, and assessed the SSA cost allocation methodology’s
compliance with those requirements. Per SFFAS No. 4, this assessment relates to
SSA’s cost accounting capabilities.

In June 1995, FASAB issued SFFAS No. 4, Managerial Cost Accounting Concepts and
Standards for the Federal Government. SFFAS No. 4 details the framework for the
managerial cost accounting processes and systems that support financial as well as
performance reporting requirements and enhances the link between financial reporting



The Social Security Administration Cost Allocation Process (A-15-10-20151)               8
and performance measurement. The Statement became effective at the beginning of
FY 1998.

SFFAS No. 4 7 requires that Federal entities establish the capacity to generate
managerial cost accounting information to provide reliable and timely information on the
full cost of Federal programs. Such sound managerial cost accounting practices
provide Congress and Federal managers the information needed to improve Federal
financial and program management decision-making, as well as supply comparative
quantitative data for measuring agency performance.

SFFAS No. 4 8 establishes the concepts and standards for providing reliable and timely
information on the full cost of Federal programs, their activities, and outputs. The
objectives of managerial cost information specified in SFFAS No. 4 are to provide the
following:

•     Program managers with relevant and reliable information relating costs to outputs
      and activities. With this information, program managers should understand the costs
      of the activities they manage. The cost information should assist them in improving
      operational efficiency.
•     Relevant and reliable cost information to assist Congress and executives in making
      decisions about allocating Federal resources, authorizing and modifying programs,
      and evaluating program performance.
•     Consistency between costs reported in general purpose financial reports and costs
      reported to program managers. This includes standardizing terminology to improve
      communication among Federal organizations and users of cost information.

SFFAS No. 4 has five standards summarized as follows. 9

•     Standard 1, General Requirements for Cost Accounting prescribes guidelines on
      cost accumulation and reporting. Specifically, that costs should be regularly
      accumulated and reported for management information purposes.
•     Standard 2, Responsibility Segments Definition requires that reporting entities
      organize themselves financially, according to sub-organization missions, funding
      alignment, outputs produced, etc. These responsibility segments are the
      organizational level at which cost and performance data are to be accumulated and
      reported. Managerial cost accounting should be performed to measure and report
      the costs of each segment’s outputs.



7
 FASAB, SFFAS No. 4, Managerial Cost Accounting Concepts and Standards for the Federal
Government, July 31, 1995, para 4 and 5.
8
    Ibid, para 1.
9
    Ibid, para 5-11.


The Social Security Administration Cost Allocation Process (A-15-10-20151)               9
•   Standard 3, Full Cost Reporting, and Standard 4, Inclusion of Inter-Entity Costs, are
    closely related and establish requirements associated with the full cost of outputs.
    Standard 3 addresses the necessity of including each segment’s direct and indirect
    contribution to outputs when accumulating costs. Standard 4 requires that entities
    recognize and include the full cost of goods and services provided to, or received
    from, other entities. These costs are to be included, regardless of the status of
    reimbursements provided or received.
•   Standard 5, Use of Appropriate Costing Methodology is concerned with the costing
    methodology used to assign costs to outputs. The full costs of resources that
    directly or indirectly contribute to the production of outputs should be assigned to
    outputs through costing methodologies that are most appropriate and should be
    followed consistently.

SSA’s cost allocation methodology complies with many of the requirements established
by SSFAS No 4. For instance, it

•   uses direct tracing to a large extent in allocating costs to program activities,
•   links costs to organizational performance,
•   is performed regularly and consistently,
•   has defined responsibility segments,
•   accumulates cost and quantitative units of resources consumed, and
•   includes the cost for social insurance programs.

However, our overall assessment of SSA’s cost allocation methodology’s compliance
with SSFAS No 4 is ‘partially compliant’ because it does not adhere to all of the critical
requirements outlined in SFFAS No. 4. The requirements of the Standard and our
assessment of SSA’s compliance are described in Appendix E. The major reasons for
our overall assessment of ‘partially compliant’ are as follows.

SSA’s Cost Allocation Methodology Did Not Assign Certain Shared Workload
Costs Through (a) Direct Trace, (b) Cause-and-Effect, or (c) Allocation of Costs
Reasonably and Consistently to Accurately Reflect the Work Effort Involved

       According to the Standard, “In principle, costs should be assigned to
       outputs in one of the methods listed below, in the order of preference:

         (a) Directly tracing costs wherever economically feasible;
         (b) Assigning costs on a cause-and-effect basis; and
         (c) Allocation on a reasonable and consistent basis.

       These principles apply to all levels of cost assignments including:
       (1) assigning inter-entity costs to segments, (2) assigning the costs of



The Social Security Administration Cost Allocation Process (A-15-10-20151)              10
           support services and intermediate products among segments of an entity
           (the intra-entity cost assignments), and (3) assigning direct and indirect
           costs to outputs.” 10

The Standard explains that, “Direct tracing applies to resources that are directly used in
the production of an output. Examples of such resources include materials that are
used in the production, employees who directly worked on the output, facilities and
equipment used exclusively in the production of the output, and goods and services
received from other entities that are directly used in the production of the output. Direct
tracing also applies to specific resources that are dedicated to particular outputs.” 11

Costs that are not considered “direct costs” are, in effect, “shared costs” or as referred
to in the Statement, “common costs.” SFFAS No. 4 defines a common cost as “The
cost of resources employed jointly in the production of two or more outputs and the cost
cannot be directly traced to any one of those outputs.” 12 The Standard reads, “For the
costs that are not directly traced to outputs, it is preferable that they be assigned to
them on a cause-and-effect basis.” 13 The Standard also indicates that, “Common costs
should be assigned to activities either on a cause-and-effect basis, if feasible, or
through reasonable allocations.” 14

A significant portion of SSA’s workloads is considered “shared workloads” because the
associated work performed simultaneously benefits multiple programs. Examples of
shared workloads are:

      •    RSI initial enrollment,
      •    RSI appeals,
      •    RSI maintenance of beneficiary records,
      •    DI initial enrollment,
      •    Social Security number (SSN) issuance, and
      •    Earnings record maintenance.

For FY 2010, shared workloads represented 56 percent of total allocated costs. The
SSA cost allocation methodology, through the ITFA, allocates a portion of these shared
workload costs based on the various programs’ total benefit outlays. The use of benefit
outlays as the basis of assigning shared costs does not manifest a suitable causal

10
     Ibid, para 130.
11
     Ibid, para 126-127.
12
     Ibid, Appendix B: Glossary.
13
     Ibid, para 129-130.
14
     Ibid, para 140.


The Social Security Administration Cost Allocation Process (A-15-10-20151)               11
relationship between resources and outputs. We do not believe benefit outlays
represent an equitable cost assignment basis, as cost allocation is then driven by
benefit amounts rather than the work performed. The use of benefit outlays as a basis
for assigning shared costs assigns a greater portion of costs to programs with higher
dollar benefit outlays, although SSA’s costs may not increase as a result of higher
outlays.

Based on our understanding of the claims taking process, an RSI beneficiary receiving
$1,000 a month does not consume more administrative costs than a DI beneficiary
receiving $500 a month. A DI beneficiary must undergo an extensive medical
questionnaire at the FO as well as a determination of disability at the DDS. However,
the use of benefit outlays as the basis would assign more of the shared costs to the RSI
program.

Alternatively, if Congress changes a program’s benefit entitlement amount, the cost
allocation would change even though the required work would remain the same. For
example, if the DI monthly benefit was raised by 10 percent, the cost allocation
methodology would shift more cost to the DI Trust Fund even though the cost to
administer the DI program would remain the same. SSA should discontinue using
benefit outlays to allocate shared costs to program activities.

CAS Work Sampling Input Data Were Often Inaccurate

According to SFFAS No. 4, “Cost information supplied to internal and external users
should be reliable and useful in making evaluations or decisions.” 15 As stated earlier in
this report, we found the work sampling data used in CAS for cost allocation inaccurate.

Ensuring the reliability of work sampling data is a critical responsibility of SSA. To help
ensure the reliability and usefulness of managerial cost accounting system results, SSA
should perform an independent review of the underlying sampling methodology,
establish controls around sample taking, calculate the organizations' sampling and
transcription errors, and determine acceptable error rates. In addition, SSA should
develop policies and procedures, such as secondary reviews or reconciliations of tally
sheets to CAS submissions to ensure that workload sampling inputs are accurate.

The SSA Cost Allocation Methodology Did Not Reconcile Budgetary to
Proprietary Methods of Allocation

CAS did not use the same basis of accounting to produce SSA’s administrative cost
results as the Office of Finance used to report standard financial statements, draw down
the Trust and general funds, or report the costs of current period operations. SSA did
not perform a reconciliation of budgetary-to-proprietary methods of allocation at the
workload or program activity levels.


15
     Ibid, para 71.


The Social Security Administration Cost Allocation Process (A-15-10-20151)              12
SSA’s financial statements, specifically the Statement of Net Cost, use the accrual
method of accounting, based on the Income Statement accounts (proprietary) from the
Standard General Ledger (SGL). The Statement of Net Cost shows the net cost of
operations for SSA as a whole by major program. CAS results, given as percentages,
are provided to the Office of Finance, which applies those percentages to operating
expenses from the SGL, to calculate drawdowns to SSA’s programs (that is, Trust and
general funds). CAS uses accrued expenditures and obligations (for example,
budgetary accounting) in determining the allocation rates and omits actual operating
expenses from the cost calculations performed.

These varying bases of accounting should be reconciled at the detail level, and the
differences explained. Per SFFAS No. 4, “Different bases of accounting will produce
different costs for the same item, activity, or entity. This may confuse users of cost
information. Therefore, reports that use different accounting bases or different
recognition and measurement methods should be reconcilable, and should fully explain
those bases and methods.” 16

The inclusion of unliquidated obligations in cost allocation system results has the effect
of allowing non-period transactions to impact period results. There is a need for SSA to
routinely perform a reconciliation and document the variations inherent in the differing
bases of accounting. SSA performs a high-level check, at the end of the year, to
confirm that annual operating expenses and the budgetary accounts are within 1 to
3 percent. The Office of Finance stated that no attempt is made to reconcile the CAS
information to operating expenses.

SSA’s Cost Allocation Methodology Did Not Use Actual Expenses in Assigning
Costs to Reporting Periods and Outputs

As previously cited, CAS relied on budgetary accounts, rather than operating expenses,
in the cost allocation methodology. The inclusion of unliquidated obligations in the
costing methodology is appropriate for determining cash drawdowns from the Trust
Funds to meet program funding requirements. However, actual expenses should be
used for managerial cost accounting purposes to calculate the true cost of work
performed on SSA programs. For instance, to calculate the true cost per claim, the use
of obligations would not be accurate due to cost recognition timing differences between
accrual and budgetary accounting.

Per SSFAS No. 4, “The assignment of costs to time periods is to recognize costs
whether as expenses or assets for each reporting period. It is governed by accounting
standards on recognition of assets and expenses . . . .”17 Within the section on
Managerial Cost Accounting Concepts, the Statement explains that, “Fundamentally,
managerial cost accounting should assist financial accounting in determining the results
of operations, during a fiscal period, by providing relevant data that are accumulated to
16
     Ibid, para 64.
17
     Ibid, para 120.


The Social Security Administration Cost Allocation Process (A-15-10-20151)             13
produce operating expenses.”18 GAO concurs. In a December 2005 report, Managerial
Cost Accounting Practices: Departments of Education, Transportation, and the
Treasury, GAO expressed concern that Federal Student Aid cost accounting models
were using “. . . obligations in lieu of actual costs.” 19

No Procedures to Periodically Revisit, Update, and Document Significant
Changes to the Cost Allocation Methodology

The SSA cost allocation methodology had not been consistently improved. SSA
management could not provide documentation that it had revised or updated the cost
allocation methodology to account for changes in SSA business processes, system
technology, or accessibility of better cost assignment data, since its inception in 1976.
There was insufficient documented evidence that it had been revisited and updated in
over 30 years. Significant automation of SSA’s business processes has occurred since
CAS was implemented. Examples of this automation include the implementation of the
Modernized Claims System (MCS), the Modernized Supplemental Security Income
Claims System (MSSICS), the On-Line Retirement Application (iClaim), roll-out of
ICTUs, and the introduction of desktop computers and 800-number service. According
to Office of Public Service Operations Support representatives, these improvements
have had a significant impact on the manner in which SSA interfaces with claimants and
on employee productivity. A timeline of changes to SSA’s business processes is
provided in Figure 2.




18
     Ibid, para 47.
19
  GAO letter to The Honorable Todd R. Platts, Chairman, House of Representatives Subcommittee on
Government Management, Finance, and Accountability Committee on Government Reform, Managerial
Cost Accounting Practices: Departments of Education, Transportation, and the Treasury. Enclosure 1.
December 19, 2005.


The Social Security Administration Cost Allocation Process (A-15-10-20151)                        14
                Figure 2: Major Changes to SSA’s Business Processes




CAS became operational in 1976 and has been continuously modified to enhance
functionality and automate data feeds and processing; however, the cost allocation
methodology has not changed significantly. This failure to periodically revisit and
update the cost allocation methodology could result in costing assumptions and cost
factors that are no longer valid or accurate. Consequently, the equitable and
appropriate allocation of administrative costs to the Trust Funds may be at risk. It is
critical that the CAS cost allocation methodology be revisited or updated to reflect
changes in SSA’s business processes and Federal accounting standards.

The Social Security Act specifies that administrative cost allocations to the Trust Funds,
“. . . shall be made in accordance with the cost allocation methodology in existence on
the date of the enactment of the Social Security Independence and Program
Improvements Act of 1994 until such time as the methodology . . . is revised by
agreement of the Commissioner and the Secretary . . . .”20 This clause implies that the
cost allocation methodology is not permanently “etched in stone,” but rather can be
revised as needed to ensure a continued equitable cost allocation. As the administrator
of SSA’s CAS and policy, it is incumbent upon OCASS to periodically review the cost
allocation methodology and recommend to the Commissioner any feasible
enhancements to improve the equity of the Trust Fund administrative cost allocation.




20
     The Social Security Act § 201(g)(1)(D), 42 U.S.C. § 401(g)(1)(D).


The Social Security Administration Cost Allocation Process (A-15-10-20151)                15
Some SSA Cost Allocation Methodology and Processes Were Not Always
Adequately Documented

As stated in a separate report, 21 we found some CAS documentation to be inadequate,
outdated, and unclear.

CAS is a complex system that requires a high degree of institutional knowledge and
manual effort to maintain. Substantial user documentation exists including a CAS
manual, CAS handbook, and the AIMS manuals on cost analysis program overview,
cost allocation policy, and SSA workload structure. These documents and additional
documentation reside on a dedicated CAS Intranet site. However, some of these
documents are outdated, insufficient, or unclear. Some examples of inadequate
documentation include the following.

•    SSA documentation does not provide adequate explanation for using accrued
     expenditures, obligations, and commitments for the current fiscal year rather than
     actual expenses for cost allocations.
•    SSA documentation does not explain the approach for applying allocation
     percentages derived from CAS to actual expenses to obtain final determination of
     the charges to the Trust Funds.
•    The description of the ITFA does not provide adequate detail on how the adjustment
     is actually calculated, which makes the methodology difficult to comprehend.
•    SSA CAS technical architecture diagrams did not accurately reflect current systems
     and technologies based on our discussions with OCASS personnel.
•    A copy of the Commissioner’s Decision of 1973 upon which the cost allocation policy
     and methodology is based could not be located.
•    The Cost Analysis System Replacement Operations Concept has not been updated
     since March 2005.

After discussions with OCASS, this documentation has been, or is being, updated.

The SSA Cost Allocation Methodology Did Not Incorporate the Full Cost of
Material Goods or Services Received from Other Entities

SSA cannot verify that charges from other entities comprise the full cost of goods or
services received. SFFAS No. 4 states, “Each entity’s full cost should incorporate the
full cost of goods and services that it receives from other entities. The entity providing
the goods or services has the responsibility to provide the receiving entity with




21
  SSA, OIG, Cost Analysis System Background Report and Viability Assessment, (A-15-10-20149),
April 2011.


The Social Security Administration Cost Allocation Process (A-15-10-20151)                      16
information on the full cost of such goods or services whether through billing or
advice.” 22

SSA has entered into numerous 23 inter-agency agreements, which are on a
reimbursable, or fee-for-service, basis. Our review of a random selection of these
agreements found that half did not require a reconciliation to determine the full cost of
the goods or services being provided to SSA. 24 In accordance with SFFAS No. 4, the
final responsibility for collecting full cost information for goods and services received
from other reporting entities is on the organization receiving those goods or services.
There is no documentation that SSA attempted to determine the full cost of goods or
services provided under these agreements. In cases where the entity that provided
goods and services does not or cannot provide full cost information, the responsibility
rests with the receiving entity to estimate these costs and include them in cost
calculations.

All costs, whether recoverable from the Trust and general fund accounts or not, should
be included in CAS and its calculations. This will provide SSA with a better
understanding of its true cost of doing business. CAS should then be able to identify
and segregate those costs applicable to the Limitation on Administrative Expenses
appropriation and therefore are recoverable from the Trust and general fund accounts.

SSA could not determine the magnitude of the full cost of goods or services provided
under these agreements. SSFAS No. 4 requires the inclusion of the full cost of these
goods or services, in determining the cost of operations. SSA should establish and
document a procedure for obtaining the full cost of goods and services received from
other entities, or estimate the cost per the Standard, regardless of the basis on which
they are exchanged.




22
 FASAB, SFFAS No. 4, Managerial Cost Accounting Concepts and Standards for the Federal
Government, July 31, 1995, page 40.
23
     In 2010, 183 agreements.
24
  From the population of Inter-Agency Agreements, totaling approximately $157 million, we randomly
selected eight to review. Of those, we found four that did not require a reconciliation of funds provided by
SSA to those expended by the recipient.


The Social Security Administration Cost Allocation Process (A-15-10-20151)                               17
                                                    Conclusions and
                                                   Recommendations
Conclusions
Audit Objective 1: Determine Whether the Data Collected and Used by SSA
Management in the Cost Allocation Process Were Valid, Complete, and Accurate
by Testing the Data Inputs to CAS.
We noted that sampling data were incorrectly uploaded into the work sampling system
at 7 of 15 FOs visited and the 3 DDSs visited. In addition, two FOs did not maintain
historical records of their work sampling submissions and tally sheets, which prohibited
us from retroactively testing prior sample submissions.

Inaccurate data submissions into CAS may cause SSA to allocate administrative costs
incorrectly.

Audit Objective 2: Review and Test Internal Controls over the Cost Allocation
Feeder Systems and Applications Used in CAS as well as the Main Processes in
CAS to Determine Whether They Were Complete and Reliable.
We noted numerous instances where the work sampling internal controls and main
processes did not ensure the completeness and reliability of CAS data. At the locations
where SSA management conducted work sampling, we noted the samples were not
consistently performed. We also noted no instances of peer or management review of
the tally sheets or input screens before submission.

SSA’s lack of internal controls regarding its work sampling processes allows erroneous
inputs into the various feeder systems and may cause the allocation of administrative
costs to be incorrect.

Audit Objective 3: Review the General Computer Control Environments
Applicable to CAS.
We performed a full-scope application control review on both CAS and DOWS
applications. This review focused on the access controls, data input, processing, and
interface controls. The FY 2010 financial statement audit disclosed three deficiencies
that, when aggregated, rose to the level of a significant deficiency. The risks associated
with these control deficiencies have a direct impact on the integrity of the CAS and
DOWS applications and database environments since both systems reside on the
mainframe. For the other controls tested related to the CAS and DOWS applications,
we identified no exceptions.




The Social Security Administration Cost Allocation Process (A-15-10-20151)             18
Audit Objective 4: Review and Test Regularly Disseminated Data Output Reports
to Determine Whether They Were Accurate, Complete, and Reliable and Whether
CAS’ Overall Purpose Was Met. Reports Reviewed Reflected Data After Input,
Allocation, and Distribution.
Our trend data analysis revealed that cost and workload information remained
consistent over the past 9 years, with no unexplainable data spikes or drops over that
period. The CAS reports analyses determined that cost and workload information
during the sampled timeframe (1st and 3rd Quarters of FY 2010) consistently flowed
through CAS and its output reports. Though some of the reports provide varying levels
of detail as they represent different phases of the cost allocation process, the aggregate
cost and workload figures could be tracked through each report.

CAS output reports were deemed complete because they provided similar types of cost
and workload data elements found in a well-established cost allocation system.

Audit Objective 5: Determine Whether the Cost Allocation Methodology Used by
SSA Management Complied with SFFAS No. 4, Managerial Cost Accounting
Concepts and Standards for the Federal Government.
Concerning SFFAS No. 4, our overall assessment was ‘partially compliant.’ Although
SSA complies with many of the Standards’ requirements, we noted the following.

•   SSA’s cost allocation methodology did not assign certain shared workload costs
    through (a) direct trace, (b) cause-and-effect, or (c) reasonable and consistent
    allocation of costs to accurately reflect the work effort involved. That is, the use of
    benefit outlays as the basis of assigning shared costs does not manifest a suitable
    causal relationship between resources and outputs.
•   CAS work sampling input data were often inaccurate.
•   SSA’s cost allocation methodology did not reconcile budgetary to proprietary
    methods of allocation at a detailed level.
•   SSA’s cost allocation methodology did not use actual expenses in assigning costs to
    reporting periods and outputs.
•   There were no procedures to periodically revisit, update, and document significant
    changes to the cost allocation methodology.
•   SSA’s cost allocation methodology and processes were not always adequately
    documented.

SSA’s use of benefit outlays to allocate shared administrative costs and budgetary data
to determine allocation rates as well as inaccurate underlying data, may cause
inappropriate allocation of SSA’s administrative costs among the various Trust Funds
and programs.

Although SSA’s administrative costs are relatively small compared to SSA’s total
outlays, SSA’s noncompliance with SFFAS No. 4 could potentially jeopardize SSA’s


The Social Security Administration Cost Allocation Process (A-15-10-20151)                19
compliance with Generally Accepted Accounting Principles and the Federal Financial
Managers Integrity Act. 25 In addition, the use of benefit outlays as the basis for
assigning shared costs as well as the use of commitments and obligations to determine
the allocation rates may cause the incorrect allocation of administrative costs.
However, because of underlying data concerns and the noncompliance issues related
to SFFAS No. 4, we were unable to conclude whether CAS results were correctly
stated.

RECOMMENDATIONS

To address the risks cited in this report, we recommend SSA:

1. Enforce and enhance policies and procedures, such as secondary reviews or
   reconciliations of tally sheets to work sampling submissions, to ensure that workload
   sampling inputs are accurate.
2. Discontinue the use of benefit outlays as the means of allocating shared costs
   among program activities, including the Trust Funds, and identify cost assignment
   methods that manifest suitable causal relationships between the work SSA performs
   and its programs.
3. Update policies and procedures to ensure the data collection process is consistently
   performed and reviews are conducted timely.
4. Reconcile the budgetary accounting basis used for cost allocation with the
   proprietary or accrual basis of accounting at a detailed level and determine if an
   adjustment to the cost allocation percentages is warranted.
5. Use actual operating expenses to determine the distribution and allocation of costs
   to workloads and program activities.
6. Periodically revisit and update the cost allocation methodology, as necessary, to
   account for the implementation of new legislation or revised accounting standards
   and significant changes in SSA business processes or technology. Appropriate
   decision papers should be prepared to address each significant change.
7. Periodically review and update, as necessary, work measurement, CAS, and ITFA
   documentation.

AGENCY COMMENTS
SSA determined that because of the interrelationship of all four CAS reviews that it was
premature to comment or respond to Grant Thornton’s recommendations. Once SSA
receives the results of all CAS reviews, they will provide consolidated comments and
responses to the recommendations.

The full text of SSA’s response can be found in Appendix G.

25
     The Federal Managers Financial Integrity Act, 31 U.S.C. §3512.


The Social Security Administration Cost Allocation Process (A-15-10-20151)              20
                                            Appendices




The Social Security Administration Cost Allocation Process (A-15-10-20151)
                                                                             Appendix A

Acronyms
CAM            Cost Analysis Manual
CAS            Cost Analysis System
CPWY           Cost Per Work-Year
DDS            Disability Determination Services
DI             Disability Insurance
DOWS           District Office Work Sampling
FASAB          Federal Accounting Standards Advisory Board
FISCAM         Federal Information System Controls Audit Manual
FO             Field Office
FY             Fiscal Year
GAO            Government Accountability Office
iClaim         On-Line Retirement Application
ICTU           Immediate Claims Taking Unit
ITFA           Inter-Trust Fund Adjustment
LAE            Limitation on Administrative Expenses
MCS            Modernized Claims System
MSSICS         Modernized Supplemental Security Income Claims System
OCASS          Office of Cost Analysis and Systems Support
ODAR           Office of Disability Adjudication and Review
OIG            Office of the Inspector General
PICA           Pre-Input Cost Analysis
PSC            Program Service Center
RSI            Retirement & Survivors Insurance
SAWS           State Agency Work Sampling
SFFAS          Statement of Federal Financial Accounting Standards
SGL            Standard General Ledger
SMI            Supplementary Medical Insurance
SSA            Social Security Administration
SSI            Supplemental Security Income
SSOARS         Social Security Online Accounting and Reporting System
U.S.C.         United States Code
WY             Workyears




The Social Security Administration Cost Allocation Process (A-15-10-20151)
                                                                             Appendix B

Scope and Methodology
The Cost Analysis System (CAS) audit objectives were to validate the accuracy of the
data used by the Social Security Administration’s (SSA) management, test the internal
controls over the systems and applications used in the CAS, review CAS’ general
computer controls environment, and test the accuracy/completeness/reliability of CAS’
main processes, data inputs, and output reports.

To accomplish our objectives, we:

•   Visited 15 field offices (FO), 3 disability determination services, and 3 Immediate
    Claims Taking Units (ICTU) in program service centers (PSC) and tested the CAS
    data inputs as well as assessed the internal controls related to the completeness,
    accuracy, and validity of the data inputs.
•   Reviewed applicable Federal laws and regulations and sections of the Social
    Security Act related to cost allocation.
•   Obtained and analyzed output reports from CAS from Fiscal Years (FY) 2001
    through 2009 and the 1st and 3rd quarters of 2010, which included the (1) Pre-Input
    Cost Analysis (PICA), (2) Level 0, (3) C1 – 1235, (4) C2 – 15A Detail, (5) C1 – 67,
    and (6) S3 – 1.
•   Performed input testing and recalculated the input calculations for two Central Office
    components: the Offices of the Deputy Commissioner for Budget, Finance and
    Management and Quality Performance, for June 2010. As part of the FY 2010
    financial statement audit, we performed a full-scope application control review of
    CAS and the District Office Work Sampling system. A full-scope application controls
    review involves modifying application controls testing as prescribed in the
    Government Accountability Office’s Federal Information System Controls Audit
    Manual (FISCAM). A full-scope application controls review focuses on the access
    controls, data input, processing, and interface controls. FISCAM defines the
    following types of system-related controls.

       1. Application Level General Controls consist of general controls operating at
          the business process application level, including those related to security
          management, access controls, configuration management, segregation of
          duties, and contingency planning.
       2. Business Process Controls are directly related to individual computerized
          applications. They help ensure transactions are complete, accurate, valid,
          confidential, and available. Business process application controls include
          (1) programmed control techniques, such as automated edits, and (2) manual
          follow-up of computer-generated reports, such as reviews of reports
          identifying rejected or unusual items.



The Social Security Administration Cost Allocation Process (A-15-10-20151)           B-1
       3. Interface Controls are over the timely, accurate, and complete processing of
          information between applications and other feeder and receiving systems and
          complete and accurate migration of clean data during conversion.
       4. Data Management System Controls are relevant to most business process
          applications because applications frequently use the features of a data
          management system to enter, store, retrieve, or process information,
          including such detailed, sensitive information as financial transactions,
          customer names, and Social Security numbers. Data management systems
          include database management systems, specialized data
          transport/communications software (often called middleware), data
          warehouse software, and data extraction/reporting software. Data
          management system controls enforce user authentication and authorization,
          availability of system privileges, data access privileges, application
          processing hosted within the data management systems, and segregation of
          duties.

Through inquiry, inspection, and observation testing, including testing of source
documentation, we:

•   Reviewed reports and system documentation related to the CAS application.
•   Met with the appropriate SSA personnel to confirm our understanding of the CAS
    application.
•   Assessed technical user access to the CAS application Customer Information
    Control System front-end screens, user access to the production environment and
    the CAS Monthly Run to determine whether workload productivity information was
    processed completely.
•   Observed the input procedures implemented for several significant workload
    processes: Monthly CAS initialization, CAS/Social Security Online Accounting and
    Reporting System (SSOARS) interface, field office input, PSC input, and Office of
    Disability and International Operations Component input.
•   Observed key front-end screen fields to determine whether the Agency had
    adequate edit validation controls over manual data input.
•   Compared data elements from well-established and comprehensive cost allocation
    systems to data elements tracked by CAS such as output cost (by total and unit),
    and volume, as well as resource cost, volume, contribution and cost by workload
    category.
To assess SSA’s compliance with the Federal Accounting Standards Advisory Board’s
(FASAB) Statement of Federal Financial Accounting Standards (SFFAS) No. 4,
Managerial Cost Accounting Concepts and Standards for the Federal Government, we
conducted an in-depth review of the Statement together with the following, related
Federal accounting standards:




The Social Security Administration Cost Allocation Process (A-15-10-20151)          B-2
   SFFAS No. 9 Deferral of the Effective Date of Managerial Cost Accounting
    Standards for the Federal Government in SFFAS No. 4 and
   SFFAS No. 30 Inter-Entity Cost Implementation: Amending SFFAS No. 4, which
    supersedes Interpretation #6: Accounting for Imputed Intra-Departmental Costs

We interviewed Agency subject matter experts from the Offices of Cost Analysis and
Systems Support and Finance on CAS methodology, process, and workload and feeder
systems. We requested data extracts from SSOARS and CAS. The interviews
addressed questions from document review, and provided increased understanding of
CAS, as a system, its origins, processes, and technological evolution. We used the
data to verify the points made in the interviews.

Our audit and assessment of compliance with SFFAS No. 4 included SSA’s managerial
cost accounting capacity, as an organization, and not only CAS.

As a validation of our evaluation, we held discussions with two Grant Thornton partners,
who had been part of the FASAB team that developed and issued SFFAS No. 4.
Through these discussions, we confirmed that our interpretation of SFFAS No.4 was in
keeping with the Board’s intent. The final compliance assessment was judged to be
reasonable and complete.

We determined that the computerized data used during our audit were sufficiently
reliable given our objectives, and the intended use of the data should not lead to
incorrect or unintentional conclusions.

The entities reviewed were the Offices of the Deputy Commissioner of Budget, Finance
and Management; Public Service and Operations Support; and Quality Performance.
Our work was conducted at SSA Headquarters in Baltimore, Maryland, from May
through October 2010. We determined that the data used in this report were sufficiently
reliable given the review objectives and their intended use. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




The Social Security Administration Cost Allocation Process (A-15-10-20151)           B-3
                                                                             Appendix C

Cost Analysis System Cost Allocation Output
Data Consistency Analysis
We analyzed the information in the Cost Analysis System output reports for irregularities
(for example, unexplained fluctuations in data) over the last 9 years. In addition, we
compared the data elements (for example, volumes, workyears, production rates, costs,
and unit costs) in each report with one another and Social Security Online Accounting
and Reporting System reports to ensure consistency throughout the CAS reporting
process. The information analyzed is shown in Tables C-1 through C-12. Percentages
and other metrics in these tables come from the end-of-year CAS S3-1 report for the
years indicated and include all SSA component costs.

Program Activity Cost Trend Data

Table C-1 displays the field offices’ (FO) total costs, in terms of percentages, from
Fiscal Years (FY) 2001 through 2009 by the program activities that they support.

             Table C-1: FO Program Activity Cost (Percent of Total Cost)
    Program          FY        FY      FY      FY       FY      FY      FY      FY       FY
   Activities       2001      2002    2003    2004     2005    2006    2007    2008     2009
Supplemental
Security Income
(SSI)                  41%     41%      40%     38%     36%     35%     34%      35%    35%
Retirement and
Survivors
Insurance (RSI)        30%     29%      29%     28%     27%     27%     28%      29%    28%
Disability
Insurance (DI)         23%     24%      25%     28%     27%     27%     29%      28%    28%
Supplementary
Medical
Insurance (SMI)         3%       3%      3%      3%      4%      4%      4%       4%     4%
Hospital
Insurance (HI)          2%       2%      2%      2%      3%      3%      3%       3%     3%
Medicare
Modernization
Act (Part D)                                     0%      3%      4%      2%       1%     2%
Other*                  1%       1%      1%      1%      0%      0%      0%       0%     0%
           Total      100%    100%    100%    100%    100%     100%    100%     100%    100%

After reviewing the total program activity cost percentages for FOs, we found no
unexplainable spikes or drops in data from FYs 2001 through 2009.




The Social Security Administration Cost Allocation Process (A-15-10-20151)               C-1
*Table C-1 “Other” comprises several workloads that comprise too small a proportion of the
whole to be displayed individually.

Table C-2 displays the disability determination serivces’ (DDS) total costs, in terms of
percentages, from FYs 2001 through 2009 by the program activities they support.

         Table C-2: DDS Center Program Activity Cost (Percent of Total Cost)
                         FY      FY      FY       FY      FY      FY          FY     FY     FY
Program Activities      2001    2002    2003     2004    2005    2006        2007   2008   2009

DI                       57%     57%      57%     58%     58%     58%        59%    59%      59%

SSI                      43%     43%      43%     42%     42%     42%        41%    41%      41%
                Total   100%    100%    100%     100%    100%    100%        100%   100%   100%

After reviewing the total program activity cost percentages for DDSs, we found no
unexplainable spikes or drops in data from FYs 2001 through 2009.

Table C-3 displays the FO’s total workyears, in terms of percentages from FYs 2001
through 2009 by the program activities they support.

            Table C-3: FO Program Activity (Percent of Total Workyears)
                         FY      FY      FY       FY      FY      FY          FY     FY     FY
Program Activities      2001    2002    2003     2004    2005    2006        2007   2008   2009

SSI                      40%     41%      40%     38%     36%     35%        34%    35%      35%

RSI                      31%     30%      29%     28%     28%     28%        29%    29%      28%
DI                       22%     23%      25%     27%     27%     27%        28%    27%      28%

SMI                       3%       4%      3%      3%      3%       4%        4%     4%      4%
HI                        2%       2%      2%      3%      3%       3%        3%     3%      3%
Medicare
Modernization Act
(Part D)                                           0%      3%       3%        2%     1%      2%
Other*                    2%       0%      1%      1%      0%       0%        0%     1%      0%
                Total   100%    100%    100%     100%    100%    100%        100%   100%   100%

After reviewing the total program activity workyear percentages for FOs, we found no
unexplainable spikes or drops in data from FYs 2001 through 2009.

*Table C-3 “Other” comprises several workloads that comprise too small a proportion of the
whole to be displayed individually.




The Social Security Administration Cost Allocation Process (A-15-10-20151)                   C-2
Table C-4 displays the DDS’ total workyears, in terms of percentages, from FYs 2001
through 2009 by the program activities they support.

           Table C-4: DDS Program Activity (Percent of Total Workyears)
      Program           FY      FY      FY     FY       FY        FY     FY       FY     FY
      Activities       2001    2002    2003   2004     2005      2006   2007     2008   2009
DI                      59%     58%     59%    60%      61%       61%    61%      62%    62%

SSI                     41%     42%    41%     40%      39%       39%    39%      38%    38%
               Total   100%    100%   100%    100%     100%      100%   100%     100%   100%

After reviewing the total program activity workyear percentages for DDSs, we found no
unexplainable spikes or drops in data from FYs 2001 through 2009.

Table C-5 displays the FO’s total costs (in millions) by workload category for the 1st and
3rd quarters of FY 2010.


 Table C-5: FO Workload Category Costs and Percentages (1st and 3rd
                         Quarters FY 2010)
                          1st QTR              3rd QTR
                           Total     Percent    Total     Percent
                           Cost      of Total    Cost     of Total
   Workload Category     (Millions)   Cost    (Millions)    Cost
Category 1 (Direct
Workload)                             $381       36.7%           $409        41.0%
Category 2 (Workload
Related)                              $83         8.0%            $97         9.7%
Category 3 (Indirect
Workload)                             $150       14.5%           $177        17.8%
Category 4 (Leave)                    $136       13.1%           $102        10.2%
Category 5 (Staff and
Measureable Support)                  $42         4.1%            $48         4.8%
Category 6 (Personnel)                $793       76.4%           $833        83.5%
Category 7 (Other
Objects)*                             $245       23.6%           $165        16.5%
                       Total       $1,038       100.0%           $998        100.0%

After reviewing the total costs by workload category, for FOs, we found no
unexplainable spikes or drops in data from FYs 2001 through 2009.

*Other Objects comprise all of the non-personnel costs of SSA.



The Social Security Administration Cost Allocation Process (A-15-10-20151)                 C-3
Table C-6 displays the DDS’ total costs (in millions) by workload category for the 1st and
3rd quarters of FY 2010.

  Table C-6: DDS Workload Category Costs and Percentages (1st and
                       3rd Quarters FY 2010)
                          1st QTR              3rd QTR
                            Total      % of     Total      % of
                            Cost      Total      Cost      Total
   Workload Category        ($M)       Cost      ($M)      Cost
Category 1 (Direct
Workload)                            $292        56.4%           $303        55.4%
Category 2 (Workload
Related)                                $0        0.1%             $0         0.1%
Category 3 (Indirect
Workload)                          NA           NA            NA             NA
Category 4 (Leave)                 NA           NA            NA             NA
Category 5 (Staff and
Measureable Support)               NA           NA            NA             NA
   Category 6 (Personnel)           $293        56.5%          $303          55.5%
Category 7 (Other
Objects)*                            $225        43.5%           $243        44.5%
                       Total         $518       100.0%           $546        100.0%

After reviewing the total costs by workload category for DDSs, we found no
unexplainable spikes or drops in data from FYs 2001 through 2009.

*Other Objects comprise all of the non-personnel costs of SSA.




The Social Security Administration Cost Allocation Process (A-15-10-20151)             C-4
Table C-7 displays the FO’s total costs in terms of percentages, by individual workload
from FYs 2001 through 2009.

              Table C-7: FO Total Cost Per Workload Activity (Percent)
                          FY      FY      FY      FY      FY       FY         FY     FY     FY
 Program Activities      2001    2002    2003    2004    2005     2006       2007   2008   2009
DISABILITY CLAIMS         13%     14%     17%     19%      18%     18%       19%    19%    19%
RSHI CLAIMS               10%     10%     10%     10%      11%     11%       12%    11%    11%
SSI BLIND &
DISABLED CLM              12%     12%     12%     13%      13%     13%       13%    12%    11%
SSN MAINTENANCE            8%      8%      8%       8%      8%      9%        9%     9%     9%
SSI
REDETERMINATION
ELIGIBILITY                9%     10%     10%       9%      6%      4%        3%     4%     5%
RSI NONDISABLED
DEPENDENT                  4%      4%      4%       4%      4%      3%        4%     4%     3%
SSI HEARINGS &
APPEALS                    2%      2%      2%       2%      2%      3%        3%     3%     3%
SSI CHANGES OF
ADDRESS                    3%      3%      2%       2%      3%      3%        3%     3%     3%
SSI STATUS
CHANGES                    3%      3%      3%       3%      3%      3%        3%     3%     3%
RSDI PAYMENTS
AND CHECKS                 4%      4%      4%       3%      3%      4%        3%     3%     3%
SSI PAYMENTS AND
CHECKS                     3%      3%      3%       2%      2%      3%        3%     3%     3%
RSDHI CHANGES OF
ADDRESS                    2%      2%      2%       2%      2%      2%        2%     2%     2%
RSDI STATUS
CHANGES                    2%      2%      2%       2%      2%      2%        2%     2%     2%
RSDI
OVERPAYMENTS               2%      2%      2%       2%      2%      2%        2%     2%     2%
SSI OVERPAYMENTS           4%      3%      3%       2%      2%      2%        2%     2%     2%
RSDI
REPRESENTATIVE
PAYEE REPORTS              2%      2%      2%       2%      2%      2%        2%     2%     2%
SSI REPSENTATIVE
PAYEE REPORTS              1%      1%      1%       1%      1%      1%        1%     1%     2%
RSDI WORK-
RELATED CDR                2%      2%      2%       2%      2%      2%        2%     2%     2%
MEDICARE PART B            1%      1%      1%       1%      2%      2%        2%     2%     2%
SSI AGED CLAIMS            1%      1%      1%       1%      1%      1%        1%     1%     1%
DI NONDISABLED
DEPENDENTS                 1%      1%      1%       1%      1%      1%        1%     1%     1%



The Social Security Administration Cost Allocation Process (A-15-10-20151)                 C-5
              Table C-7: FO Total Cost Per Workload Activity (Percent)
                          FY      FY      FY      FY      FY       FY         FY     FY     FY
 Program Activities      2001    2002    2003    2004    2005     2006       2007   2008   2009
RSDI
RECONSIDERATIONS           1%      1%      1%       1%      1%      1%        1%     1%      1%
SSI
RECONSIDERATIONS           1%      1%      1%       1%      1%      1%        1%     1%      1%
RSDI HEARINGS &
APPEALS                    1%      1%      1%       1%      1%      1%        1%     1%      1%
RSDI MEDICAL CDR           2%      2%      1%       1%      1%      1%        1%     1%      1%
SSI CDR                    2%      2%      2%       1%      1%      1%        1%     1%      1%
SSI LIMITED ISSUES                                                                   1%      1%
MEDICARE PART A            1%      1%      1%       1%      1%      1%        1%     1%      1%
EARNINGS
MAINTENANCE                1%      1%      1%       1%      1%      1%        1%     1%      1%
PART D SUBSIDY
APPS                                                        1%      2%        1%     1%      0%
OTHER*                     2%      1%      0%       2%      2%      0%        0%     0%      1%
                 Total   100%    100%    100%    100%    100%     100%       100%   100%   100%

After reviewing the total costs per workload activity for FOs, we found no unexplainable
spikes or drops in data from FYs 2001 through 2009.

*Table C-7 “Other” is comprised of several workloads that comprise too small a proportion of the
whole to be displayed individually.




The Social Security Administration Cost Allocation Process (A-15-10-20151)                 C-6
Table C-8 Displays the DDS’ total costs in terms of percentages, by individual workload
from FYs 2001 through 2009.

              Table C-8: DDS Total Cost Per Workload Activity (Percent)
                          FY      FY      FY      FY      FY       FY         FY     FY     FY
 Program Activities      2001    2002    2003    2004    2005     2006       2007   2008   2009
DI INITIAL
DETERMINATION             24%     25%     28%     26%      27%     28%       29%    29%    28%
SSI BLIND &
DISABILITY DETERM         25%     26%     28%     25%      25%     27%       27%    26%    26%
DI-SSI INITIAL
DETERMINATION             15%     17%     18%     19%      19%     19%       19%    19%    20%
DI
RECONSIDERATIONS           6%      5%      5%       5%      5%      5%        6%     6%     5%
SSI CDR - MEDICAL                          3%       6%      5%      4%        4%     4%     5%
SSI
RECONSIDERATIONS           5%      4%      4%       4%      4%      4%        4%     4%     4%
DI-SSI
RECONSIDERATIONS           3%      3%      4%       4%      4%      4%        4%     4%     4%
DI CDR - MEDICAL                           3%       4%      3%      3%        2%     2%     3%
DI/SSI EVIDENTIARY
RECONSIDERATION            1%      1%      1%       1%      1%      1%        1%     1%     1%
DI/SSI FACE TO
FACE
RECONSIDERATION            2%      2%      2%       1%      1%      1%        1%     1%     1%
DI CDR WORK ISSUE          0%      0%      1%       1%      1%      1%        1%     1%     1%
DI/SSI CDR -
MEDICAL                                    1%       1%      1%      1%        1%     1%     1%
OTHER*                   19%*    17%*      2%       3%      4%      2%        1%     2%     0%
                 Total   100%    100%    100%    100%    100%     100%       100%   100%   100%

After reviewing the total cost per workload activity, for DDSs, we found no unexplainable
spikes or drops in data from FYs 2001 through 2009.

*Table C-8 “Other” is comprised of several workloads, many of which were discontinued
following FY 2002.




The Social Security Administration Cost Allocation Process (A-15-10-20151)                 C-7
Table C-9 displays the FO’s total number of cases processed, in terms of percentages,
individual workload from FYs 2001 through 2009.

                 Table C-9: FO Number of Cases (Processed Percent)
                          FY      FY      FY      FY      FY       FY         FY     FY     FY
 Program Activities      2001    2002    2003    2004    2005     2006       2007   2008   2009
RSDI STATUS
CHANGES                   17%     18%     18%     19%      19%     18%       18%    18%    18%
SSN MAINTENANCE           23%     22%     22%     22%      20%     20%       20%    20%    18%
SSI STATUS
CHANGES                   13%     14%     13%     13%      15%     15%       15%    15%    14%
RSDHI CHANGES OF
ADDRESS                    7%      7%      7%       8%      8%      7%        7%     7%     7%
SSI CHANGES OF
ADDRESS                    4%      4%      4%       5%      5%      5%        5%     5%     5%
RSHI CLAIMS                3%      3%      3%       3%      3%      3%        3%     4%     4%
DISABILITY CLAIMS          2%      3%      3%       3%      4%      4%        4%     4%     4%
SSI BLIND &
DISABLED CLAIM             3%      3%      3%       3%      4%      4%        4%     4%     4%
SSI OVERPAYMENTS           6%      4%      3%       3%      3%      3%        3%     3%     3%
RSDI
REPRESENTATIVE
PAYEE REPORTS              1%      1%      1%       1%      2%      2%        2%     2%     3%
RSI NONDISABLED
DEPENDNT                   2%      2%      2%       2%      2%      2%        2%     2%     2%
RSDI PAYMENTS
AND CHECKS                 2%      2%      2%       2%      2%      2%        2%     2%     2%
SSI
REPRESENTATIVE
PAYEE REPORTS              1%      1%      1%       1%      1%      1%        1%     1%     2%
SSI
REDETERMINATN
ELIGIBILITY                3%      3%      3%       3%      2%      1%        1%     1%     2%
MEDICARE PART A            3%      3%      3%       3%      2%      2%        2%     2%     2%
RSDI
RECONSIDERATIONS           1%      1%      1%       1%      1%      1%        1%     1%     1%
SSI
RECONSIDERATIONS           1%      1%      1%       1%      1%      1%        1%     1%     1%
SSI HEARINGS &
APPEALS                    1%      1%      1%       1%      1%      1%        1%     1%     1%
RSDI HEARINGS &
APPEALS                    1%      1%      1%       1%      1%      1%        1%     1%     1%
RSDI
OVERPAYMENTS               1%      1%      1%       1%      1%      1%        1%     1%     1%
SSI PAYMENTS AND
CHECKS                     2%      2%      2%       2%      2%      2%        1%     1%     1%



The Social Security Administration Cost Allocation Process (A-15-10-20151)                 C-8
                 Table C-9: FO Number of Cases (Processed Percent)
                          FY      FY      FY      FY      FY       FY         FY     FY     FY
 Program Activities      2001    2002    2003    2004    2005     2006       2007   2008   2009
MEDICARE PART B            0%      0%      0%       0%      1%      1%         1%    1%     1%
OTHER                      3%      3%      5%       2%      0%      3%         4%    3%     3%
                 Total   100%    100%    100%    100%    100%     100%       100%   100%   100%

After reviewing the total number of cases processed for FOs, we found no
unexplainable spikes or drops in data from FYs 2001 through 2009.

Table C-10 displays the DDS’ total number of cases processed, in terms of
percentages, by individual workload from FYs 2001 through 2009.

               Table C-10: DDS Number of Cases (Processed Percent)
                          FY     FY      FY       FY      FY      FY          FY     FY     FY
 Program Activities      2001   2002    2003     2004    2005    2006        2007   2008   2009
SSI BLIND &
DISABILITY
DETERMINATION            24%     25%      25%     25%     26%     28%        28%    28%     28%
DI INITIAL
DETERMINATION            19%     20%      21%     20%     21%     22%        23%    22%    22%
DI-SSI INITIAL
DETERMINATION            14%     16%      17%     18%     20%     22%        22%    22%    21%
DI-SSI
RECONSIDERATION           4%       4%      5%      5%      6%       5%        6%     6%     6%
DI
RECONSIDERATION           5%       5%      5%      5%      5%       5%        6%     5%     5%
SSI
RECONSIDERATION           5%       4%      4%      4%      4%       4%        5%     4%     5%
DI CDR - MEDICAL                          11%     11%      7%       4%        3%     3%     5%
HI/SMI FED/MED
INITIAL                   0%       0%      5%      5%      5%       4%        2%     3%     3%
DI HEARINGS               1%       1%      1%      1%      1%       1%        1%     1%     2%
DI/SSI EVIDENTIARY
RECONSIDERATION           2%       2%      2%      2%      1%       1%        1%     1%     1%
DI/SSI FACE TO
FACE
RECONSIDERATION           1%       1%      1%      1%      1%       1%        1%     1%     1%
SSI HEARINGS              1%       1%      1%      1%      1%       1%        1%     1%     1%
SSI CDR - MEDICAL                          1%      2%      2%       2%        1%     1%     0%
OTHER*                   24%*   20%*       1%      0%      0%       0%        0%     2%     0%
               Total     100%   100%    100%     100%    100%    100%        100%   100%   100%
After reviewing the total number of cases processed, for DDS, we found no
unexplainable spikes or drops in data from FYs 2001 through 2009.



The Social Security Administration Cost Allocation Process (A-15-10-20151)                 C-9
*Table C-10 “Other” is comprised of several workloads, many of which were discontinued
following FY 2002.

Table C-11 displays the FO’s unit costs by individual workload from FYs 2001 through
2009.




The Social Security Administration Cost Allocation Process (A-15-10-20151)               C-10
                     Table C-11: FO Unit Cost Per Workload Activity
    Program          FY      FY       FY       FY        FY        FY          FY     FY       FY
    Activities      2001    2002     2003     2004      2005      2006        2007   2008     2009
PART D SCE
APPS*                                                             $4,403      $290    $186     $533
DI FEDRO
APPEALS                                                                       $148    $133     $531
PART B IRMAA
APPEALS                                                                       $818   $1,457    $391
RSDI WORK-
RELATED CDR         $442     $450     $518     $519       $512      $461      $449    $397     $354
SSI FEDRO
APPEALS                                                                        $94    $104     $312
DISABILITY
CLAIMS              $226     $223     $248     $270       $250      $263      $266    $263     $257
RSDI MEDICAL
CDR                 $108     $131     $162     $143       $135      $141      $208    $216     $217
SSI BLIND &
DISABLED
CLAIMS              $198     $182     $185     $193       $182      $191      $178    $174     $164
SSI HEARINGS &
APPEALS             $164     $155     $164     $172       $182      $220      $204    $188     $160

RSHI CLAIMS         $172     $165     $179     $182       $169      $175      $183    $168     $158
PART D SUBSIDY
APPEALS                                                $54,857*      $69      $161    $110     $153

SSI CDR             $113      $83     $109     $100       $114      $122      $154    $178     $152
BLACK LUNG
CLAIMS DOL            $67     $69      $93     $125       $110       $92       $76     $94     $149
SSI
REDETERMINATI
ON ELIGIBILITY      $129     $150     $146     $145       $151      $142      $149    $168     $146
SSI LIMITED
ISSUES                                                                                $119     $134
FOOD STAMP
APPS/RECERTS        $274     $140     $133     $167       $147      $118      $101    $136     $118
SSI PAYMENTS
AND CHECKS            $51     $50      $55      $62         $78      $94      $102    $108     $108
RSDI HEARINGS
& APPEALS             $75     $63      $58      $67         $65      $82      $102    $104     $102

MEDICARE PART       $1,06
B*                      8    $986   $1,068   $1,275       $114      $130      $130     $99     $100
EARNINGS
MAINTENANCE           $61     $59      $67      $74         $66      $54       $80     $91     $100


 The Social Security Administration Cost Allocation Process (A-15-10-20151)                   C-11
                     Table C-11: FO Unit Cost Per Workload Activity
   Program           FY      FY       FY       FY        FY        FY          FY     FY     FY
   Activities       2001    2002     2003     2004      2005      2006        2007   2008   2009
DI
NONDISABLED
DEPENDENTS            $97     $92      $94      $90         $92      $93       $93    $90     $92
RSDI
OVERPAYMENTS          $87     $86      $91      $88         $84      $86       $87    $90     $88
RSI
NONDISABLED
DEPENDENT             $84     $83      $85      $86         $82      $82       $90    $92     $85
SSI AGED
CLAIMS              $160     $141     $140     $144       $128      $126       $96    $89     $84
RSDI EARNINGS
ENFORCEMENT           $69     $74      $79      $73         $70      $67       $71    $63     $82
PART D SUBSIDY
APPS                                                      $388       $43       $72    $89     $78
PART B IRMAA
EVENTS                                                                        $117    $89     $76
RSDI PAYMENTS
AND CHECKS            $83     $84      $85      $87         $81      $79       $73    $78     $75
RSDI
RECONSIDERATI
ONS                   $66     $59      $54      $61         $66      $72       $75    $77     $72
PART D SUBSIDY
REDETS**                                                          $4,269      $114    $81     $72
SSI
RECONSIDERATI
ONS                   $80     $67      $55      $56         $55      $68       $64    $67     $64
RSDI REP PAYEE
REPORTS               $66     $62      $66      $67         $62      $63       $58    $51     $49
MEDICARE PART
A                     $17     $17      $18      $19         $33      $26       $30    $37     $40
SSI REPSNT
PAYEE
REPORTS               $45     $38      $40      $51         $57      $62       $61    $58     $36
SSI
OVERPAYMENTS          $30     $34      $35      $35         $36      $38       $36    $35     $34
SCHOOL
ATTENDANCE
REPRTS                $49     $49      $44      $39         $32      $32       $30    $31     $33
SSI CHANGES
OF ADDRESS            $26     $26      $25      $25         $29      $30       $32    $27     $26
SSN
MAINTENANCE           $14     $15      $18      $18         $21      $22       $23    $25     $25
RSDHI CHANGES
OF ADDRESS            $10     $10      $11      $11         $11      $11       $13    $13     $14


 The Social Security Administration Cost Allocation Process (A-15-10-20151)                 C-12
                     Table C-11: FO Unit Cost Per Workload Activity
   Program           FY       FY       FY       FY         FY        FY        FY       FY     FY
   Activities       2001     2002     2003     2004       2005      2006      2007     2008   2009
SSI STATUS
CHANGES                $9      $10      $11       $10        $11       $12     $12      $11     $11
RSDI STATUS
CHANGES                $5       $5        $5       $6         $5        $5        $6     $6      $6

 After reviewing the FO unit cost per workload activity, we found no unexplainable spikes
 or drops in data from FYs 2001 through 2009.

 *Table C-11 – The relatively high unit costs for FYs 2001 through 2004 were a result of a
 combination of a low number of units processed relative to a fixed total cost.

 **Table C-11 – Only 17 Part D Subsidy appeals were processed in the first year against
 significant initial cost. The other two marked unit costs (PART D SCE APPS and PART D
 SUBSIDY REDETS) evidence the same behavior, in their first and subsequent years.




 The Social Security Administration Cost Allocation Process (A-15-10-20151)                   C-13
Table C-12 displays the DDS unit costs by individual workload from FYs 2001 through
2009.

                      Table C-12: DDS Unit Cost Per Workload Activity
 Program        FY       FY        FY        FY        FY        FY         FY        FY         FY
 Activities    2001     2002      2003      2004      2005      2006       2007      2008       2009
SSI CDR
WORK
ISSUE*         $3,340    $3,997   $31,336   $32,994   $56,453   $79,601   $136,330   $94,514   $144,589
DI/SSI CDR
WORK
ISSUE*          $827      $833     $3,167    $4,444    $5,571    $5,381    $15,026   $11,113    $13,242
DI CDR
WORK
ISSUE*          $514      $541     $3,163    $3,548    $3,932    $5,115    $10,033    $8,246    $12,886
DI/SSI
FACE TO
FACE
RECON           $605      $570      $616      $571      $648      $730       $915      $759       $758
DI INITIAL
DETERM          $500      $516      $549      $537      $583      $624       $636      $648       $645
DI
RECONS          $445      $425      $377      $412      $445      $519       $489      $564       $558
HI/SMI
FED/MED
INITIAL         $491      $497      $483      $480      $527      $539       $522      $543       $540
SSI CDR -
MEDICAL                             $111      $223      $317      $547       $624      $629       $518
DI/SSI
EVIDENTIA
RY RECON        $218      $238      $260      $294      $334      $438       $572      $527       $481
SSI BLIND
& DISAB
DETERM          $406      $418      $458      $414      $440      $478       $473      $471       $472
DI-SSI
INITIAL
DETERM          $422      $428      $435      $421      $430      $442       $436      $445       $466
DI/SSI CDR
- MEDICAL                           $243      $328      $334      $325       $594      $415       $466
DI CDR -
MEDICAL                             $228      $341      $319      $310       $573      $415       $429
SSI
RECONSID
ERATIONS        $368      $407      $394      $441      $430      $497       $446      $433       $416
DI-SSI
HEARINGS        $243      $230      $231      $209      $286      $244       $190      $227       $415
DI-SSI
RECONSID
ERATIONS        $332      $312      $320      $325      $313      $323       $312      $312       $313



The Social Security Administration Cost Allocation Process (A-15-10-20151)                     C-14
                      Table C-12: DDS Unit Cost Per Workload Activity
 Program        FY       FY        FY        FY       FY        FY       FY          FY       FY
 Activities    2001     2002      2003      2004     2005      2006     2007        2008     2009
SSI
HEARINGS        $249      $285      $323      $362     $395      $411        $356    $283      $267
DI
HEARINGS        $249      $247      $300      $271     $314      $345        $229    $134      $113
DI CDR
MAILER          $262      $578
SSI-CDR
MAILER         $1,025     $692
DI/SSI CDR
MAILER          $392      $800
DI CDR
OTHER
SGA            $1,870    $2,173
SSI CDR
OTHER
SGA            $1,953    $2,559
DI/SSI CDR
OTHER
SGA            $4,215    $4,947
DI CDR
DIRECT
RELEASE         $119      $118
SSI CDR
DIRECT
RELEASE         $140      $110
DI/SSI CDR
DIRECT
RELEASE         $150      $138


After reviewing the DDS unit cost per workload activity, we found no unexplainable
spikes or drops in data from FYs 2001 through 2009.

*Table C-12 – The high unit costs of the three marked workloads, for the period
displayed, were a result of a combination of a significant reduction in the number of
items processed with a relatively fixed total cost.




The Social Security Administration Cost Allocation Process (A-15-10-20151)                  C-15
                                                                             Appendix D

Cost Allocation Data Completeness Analysis
Generally Accepted Cost and Workload Data Elements Comparison

We compared the information provided in the Cost Analysis System (CAS) to generally
accepted cost and workload data elements to determine whether sufficient and
appropriate cost allocation output information was being captured and displayed. The
specific reports reviewed are listed and defined below.

•   Electronic Cost Report – Provides input level workload (open pending, receipts,
    processed, and close pending counts), workyears, and average salaries by
    workload/function.
•   Pre-Input Cost Analysis (PICA) - Presents a summary of raw data from several
    Social Security Administration (SSA) systems by organization, component workload,
    and month to enable end-users to assess operational results.
•   Level 0 - Presents input level workload processed counts, workyears, and average
    weights by workload/function and costs by CAS sub-object class.
•   C1 – 1235 - Presents category workyears, payroll obligation, and payroll costs per
    workyear for workload and staff functions by program activity for SSA components.
•   C2 – 15A Detail - Presents cumulative monthly processed counts, workyears, payroll
    obligations and other object costs, unit costs, cost per workyear, and production
    rates by direct workload, program activity, and SSA component. It presents
    separately, staff workyear, cost expenditures, and associated other object costs by
    staff function.
•   C1 – 67 - Presents obligations by program activity, component, and major sub-object
    class. This report is used to monitor adherence to appropriation and allotment limits
    and SSA’s internal limitations and component operating or spending plans.
•   S3 – 1 - Presents total workyears and costs, including staff, by direct workload and
    program activity for components and SSA. This report provides a comprehensive
    source of total and unit cost data by direct workload.

Table D-1 displays the seven generally accepted data elements, a description of each
element, and the corresponding CAS element or term. Table D-2 displays the results of
the comparison.




The Social Security Administration Cost Allocation Process (A-15-10-20151)            D-1
   Table D-1: Generally Accepted Data Elements v. CAS Terminology Crosswalk
 Generally Accepted
                                              Description                        CAS Terminology
   Data Element

1. Output Cost (Total)          The total cost of individual outputs.     Total cost

2. Output Cost (Unit)           The cost of producing one output.         Unit cost

3. Output Volume                The number of outputs produced.           Processed/Count
                                The cost of the resource(s) involved      Cost Per Workyear
4. Resource Cost
                                with producing an output.                 (CPWY)
                                The number of resources it takes to
5. Resource Volume                                                        Workyear (WY)
                                produce an output.
                                The total resource contribution by
6. Resource                                                               Workload category (CAT)
                                workload category (for example, direct
Contribution                                                              by program activity
                                workload, indirect workload).
7. Resource Cost by             The cost of resources per workload
                                                                          CPWY by workload CAT
   Workload Category            category.



          Table D-2: Generally Accepted Data Elements v. CAS Comparison

                                                                   CAS Reports
  Expected Data
                          CAS Term
    Element                                                      C1-
                                           PICA     Level 0              C2-15A       C1-67   S3-1
                                                                1235

Output Cost (Total)     Total cost          NA         X          X        X           X       X

Output Cost (Unit)      Unit cost           NA        NA          X        X           NA      X

Output Volume           Count                X         X          X        X           NA      X

Resource Cost           CPWY                NA        NA          X        X           NA      X

Resource Volume         WY                   X         X          X        X           X       X

                        Workload CAT
Resource
                        by program           X        NA          X        X           X       X
Contribution
                        activity
Resource Cost by        CPWY by
                                            NA        NA          X        X           NA      X
Workload Category       workload CAT




The Social Security Administration Cost Allocation Process (A-15-10-20151)                         D-2
                                                                                    Appendix E

Assessment of Social Security Administration
Cost Allocation Methodology Compliance with
Statement of Federal Financial Accounting
Standards No. 4
The Federal Accounting Standards Advisory Board (FASAB) Statement of Federal
Financial Accounting Standards (SFFAS) No. 4 establishes the concepts and standards
for providing reliable and timely information on the full cost of Federal programs, their
activities, and outputs. The objectives of managerial cost information specified in
SFFAS No. 4 are to provide:

•     Program managers with relevant and reliable information relating costs to outputs
      and activities. With this information, program managers should understand the costs
      of the activities they manage. The cost information should assist them in improving
      operational efficiency.
•     Relevant and reliable cost information to assist Congress and executives in making
      decisions about allocating Federal resources, authorizing and modifying programs,
      and evaluating program performance.
•     Consistency between costs reported in general purpose financial reports and costs
      reported to program managers. This includes standardizing terminology to improve
      communication among Federal organizations and users of cost information.

The first two objectives primarily address the managerial use of cost information in
improving operating efficiency and cost effectiveness, making planning and budgeting
decisions, and measuring performance. The third objective primarily addresses
external financial reporting, which can be achieved by reporting cost information in
financial statements that is consistent with costs generated by the cost accounting
process. Because of the differences in the three objectives, some requirements in
SFFAS No. 4 are relevant to managerial decision making and operations improvement,
while some requirements are relevant to external financial reporting. 1

We deemed certain requirements of SFFAS No. 4 as critical. We define criticality as
having a direct impact on the accuracy and equitableness of the allocation of
administrative costs to the Trust Funds and on continuity of operations.

Standard 1, General Requirements for Cost Accounting prescribes guidelines on cost
accumulation and reporting, specifically, that costs should be accumulated and reported
on a regular basis for management information purposes.

1
    Government Accountability Office, Financial Audit Manual, Section 903.02-903.04, July 2008.


The Social Security Administration Cost Allocation Process (A-15-10-20151)                        E-1
          Requirement                                       Assessment
1.1 Managerial cost accounting         Significance: Critical
should be performed on a regular
and consistent basis                   Rating: Compliant

                                       The Office of Cost Analysis and Systems Support
                                       (OCASS) accumulates data and reports cost, and other
                                       information, for the current period the year-to-date
                                       (cumulative). Reports also provide a period-adjusted
                                       annual projection.

                                       OCASS runs its cost allocation cycle on a regularly
                                       scheduled, monthly basis.

                                       OCASS is consistent, in that the same process is used
                                       from cycle to cycle.
1.2 Managerial cost accounting         Significance: Critical
should determine the cost of
programs and the composition of,       Rating: Compliant
and changes in, those costs
                                       While the Cost Analysis System (CAS) does not provide
                                       the capability to display the composition (that is, break
                                       out of personnel, supplies, contracts, equipment, etc.) of
                                       the individual output level costs it reports, with some
                                       effort these can be derived externally, and the
                                       information provided to managers or analysts who desire
                                       it.

                                       CAS maintains the current year’s data in the system.
                                       Historical data are available on the Social Security
                                       Administration’s (SSA) Intranet site, and end-of-year
                                       reports can be viewed, downloaded, or printed for use in
                                       analysis. In some instances, there are also volumes of
                                       printed reports that date back as far as 1976.
1.3 Cost should be linked to           Significance: Critical
organizational performance
                                       Rating: Compliant

                                       While CAS does not link the costs produced by its
                                       calculations to the performance goals and outcomes of
                                       SSA, the system does produce unit cost and employee
                                       productivity data for various uses




The Social Security Administration Cost Allocation Process (A-15-10-20151)                    E-2
1.4 Procedures and practices              Significance: Critical
should be established to collect,
measure, accumulate, analyze,             Rating: Compliant
interpret, and communicate cost
information                               OCASS and other responsible SSA components (for
                                          example, Offices of Public Service and Operations
                                          Support and Earnings, Enumeration and Administrative
                                          Systems) have established procedures for collecting and
                                          processing financial and non-financial data, for use with
                                          CAS. CAS results are used in various analyses in the
                                          Agency.
1.5 Reporting of cost information         Significance: Critical
should be timely and consistent
                                          Rating: Compliant

                                          The primary user of CAS cost information, the Office of
                                          Finance, indicated that monthly CAS information was
                                          reported in sufficient time to meet its needs.
1.6 Managerial cost accounting            Significance: Critical
information should reconcile with the
financial accounting system of            Rating: Compliant
record
                                          CAS does reconcile back to the Standard General
                                          Ledger (SGL). CAS uses current year accrued
                                          expenditures, obligations and commitments, which are
                                          extracted from and reconcilable to the Social Security
                                          Online Accounting and Reporting System (SSOARS),
                                          SSA’s core financial accounting system.
1.7 If using an accounting basis for      Significance: Critical
managerial cost accounting that
differs from the accounting basis for     Rating: Noncompliant
financial statement reporting (that is,
proprietary or accrual accounting),       CAS does not use the same basis of accounting to
the bases of accounting must              produce SSA administrative cost results as the Office of
reconcile                                 Finance uses to report them in standard financial
                                          statements, draw down the Trust and general funds, or
                                          report the costs of current period operations. Managerial
                                          cost information from CAS does not reconcile budgetary
                                          to proprietary methods of allocation. There is no
                                          reconciliation of budgetary-to-proprietary methods of
                                          allocation at the workload or program activity level.

                                          SSA’s financial statements, specifically the Statement of
                                          Net Cost, use the accrual method of accounting. This
                                          statement shows the net cost of operations for SSA as a
                                          whole, by major program. CAS results, given as
                                          percentages, are provided to the Office of Finance,
                                          which applies those percentages to operating expenses
                                          from the SGL, to calculate drawdowns to SSA’s
                                          programs (that is, Trust and general funds). CAS uses



The Social Security Administration Cost Allocation Process (A-15-10-20151)                      E-3
                                       commitments and obligations (budgetary accounting;
                                       4000 series SGL accounts) in determining the allocation
                                       rates and omits operating expenses from the cost
                                       calculations performed.

                                       Per the standard, these varying bases of accounting
                                       need to be reconciled at the detail level, and the
                                       differences explained. This requirement is considered
                                       “critical” because the inclusion of commitments and
                                       unliquidated obligations in cost allocation results has the
                                       effect of allowing non-period transactions to impact
                                       period results.

                                       There is a high level check, at the end of the year, to
                                       confirm that annual operating expenses and the
                                       budgetary accounts are close to equal. However, this is
                                       performed only at the end of the fiscal year and only in
                                       the aggregate. The Office of Finance has stated that no
                                       attempt is made to reconcile the CAS information to
                                       operating expenses.
1.8 Cost information should be         Significance: Critical
precise enough to be useful and
reliable                               Rating: Noncompliant

                                       Work sampling data used in CAS for cost allocation has
                                       been found to be inaccurate. During visits, by the audit
                                       team, to 15 field offices, and 3 disability determination
                                       services (DDS), the team tested the accuracy of
                                       transcribing tally sheet data into a system that ultimate
                                       feeds CAS. In the seven instances where tally sheets
                                       were available for review, the sampled sheets reflected
                                       what was actually transcribed into the automated
                                       system.
1.9 Managerial cost accounting         Significance: Critical
systems and processes should be
adequately documented                  Rating: Noncompliant

                                       Some elements of CAS documentation have been
                                       inadequate, outdated, and unclear. Although substantial
                                       documentation exists, some of these documents are
                                       outdated, insufficient, or unclear. Some examples of
                                       inadequate documentation include the following.

                                       •   SSA documentation does not provide adequate
                                           explanation for the use of accrued expenditures,
                                           commitments and obligations rather than actual
                                           expenses for cost allocations.
                                       •   SSA documentation does not fully explain the
                                           approach for applying allocation percentages derived
                                           from CAS to actual expenses to obtain final



The Social Security Administration Cost Allocation Process (A-15-10-20151)                     E-4
                                           determination of the charges to the Trust Funds
                                       •   The description of the Inter-Trust Fund Adjustment
                                           does not provide adequate detail on how the
                                           adjustment is actually calculated, making the
                                           methodology difficult to comprehend.
                                       •   A copy of the Commissioner’s Decision of 1973 upon
                                           which the cost allocation policy and methodology is
                                           based could not be located.

Standard 2, Responsibility Segments Definition requires that reporting entities organize
themselves, financially, according to sub-organization missions, funding alignment,
outputs produced, etc. These responsibility segments are the organizational level at
which cost and performance data are to be accumulated and reported. Managerial cost
accounting should be performed to measure and report the costs of each segment’s
outputs.

          Requirement                                       Assessment
2.1 Responsibility segments should     Significance: Critical
be defined and established, report
costs at that level, and be based on   Rating: Compliant
organization structure, mission,
outputs, budget accounts, and          SSA’s responsibility segment structure conforms to the
funding authority                      requirement.

                                       CAS’ calculated results are reported for each output
                                       (workload or program activity) at the responsibility
                                       segment level of detail.

                                       SSA’s responsibility segments are aligned closely with
                                       the Agency’s budgetary structure.
2.2 Segments should accumulate         Significance: Critical
costs and quantitative units of
resources consumed                     Rating: Compliant

                                       SSA’s managerial cost accounting process does
                                       accumulate units of resource by segment and output, in
                                       particular personnel workyears. Since payroll is the
                                       largest single cost of operations, considerable focus is
                                       placed on this resource.

                                       SSA quantifies all of its responsibility segments’
                                       production outputs (workloads), at the segment level of
                                       detail, and aggregates these at the SSA level of detail.




The Social Security Administration Cost Allocation Process (A-15-10-20151)                    E-5
2.3 Segments should calculate the      Significance: Non-Critical
cost per unit of each type of output
                                       Rating: Compliant

                                       SSA’s managerial cost accounting system and process
                                       do calculate the unit cost of all component and SSA level
                                       outputs.
2.4 Segments should use                Significance: Non-Critical
managerial cost accounting to
facilitate cost control and            Rating: Noncompliant
management
                                       CAS is not a mechanism designed or used for cost
                                       control. OCASS considers CAS to be a cost allocation
                                       system, not a managerial cost accounting system. CAS
                                       was originally designed to fulfill the need for an
                                       automated system to assign administrative costs to the
                                       Trust Funds per Social Security Act requirements.
                                       Therefore, this requirement is considered “non-critical.”
                                       CAS was not originally intended to be a managerial cost
                                       accounting system, preceded the promulgation of
                                       Federal managerial cost accounting standards and
                                       applicable legislation, and has not over time evolved to
                                       meet the standards or associated legislation.
2.5 Segments should accumulate         Significance: Critical
costs for outputs produced by the
segment                                Rating: Compliant

                                       CAS’ calculated results show output costs (workload or
                                       program activity) at the Responsibility Segment level of
                                       detail.

Standard 3, Full Cost Reporting addresses the necessity of including each segment’s
direct and indirect contribution to outputs when accumulating costs.

           Requirement                                      Assessment
3.1 All direct costs to produce        Significance: Critical
outputs should be included in full
cost                                   Rating: Compliant
                                       Direct costs, associated with SSA outputs and program
                                       activities, are included in full costs.
3.2 All indirect costs should be       Significance: Critical
included in full costs
                                       Rating: Compliant

                                       The SSA workload structure includes specific items to
                                       collect the effort, and therefore cost, of common work
                                       (that is, training, management oversight, program
                                       management, and the like).
3.3 Health and life insurance          Significance: Critical



The Social Security Administration Cost Allocation Process (A-15-10-20151)                      E-6
           Requirement                                          Assessment
benefits of current employees are
included in full costs                   Rating: Compliant

                                         The cost of these and other benefits for current
                                         employees are included in SSA’s managerial cost
                                         accounting system calculations.
3.4 Pension benefits of current          Significance: Critical
employees, covered by defined
pension plans, are included in full      Rating: Compliant
costs
                                         These retirement benefit costs are included in SSA’s
                                         managerial cost accounting system calculations.
3.5 Health and life insurance            Significance: Non-Critical
benefits of retired employees, their
survivors and dependents, are            Rating: Non-compliant
included in full costs
                                         SSA’s focus for CAS is on recovering operating costs.
                                         CAS, although encompassing the entire Agency, only
                                         focuses on costs related to the Limitation on
                                         Administrative Expenses (LAE) appropriation. 2 The
                                         funds (revenues) that cover SSA’s administrative
                                         expenses come from the charges SSA levies against the
                                         Social Security and Medicare trust funds, and various
                                         general fund accounts. Although these Other
                                         Retirement Benefits costs accrue to SSA, they are not
                                         recoverable as part of the LAE appropriation.

                                         The Statement requires that these costs be accounted
                                         for in an agency’s full costs, since they are, in fact, a cost
                                         of the organization. At present, CAS cannot make a
                                         distinction between full cost and what is recoverable as
                                         part of LAE. Therefore, only LAE recoverable costs are
                                         included in the system.
3.6 Costs of Other Postemployment        Significance: Critical
Benefits for retired, terminated, and
inactive employees should be             Rating: Compliant
included in full cost
                                         The costs of former employees are included in SSA’s
                                         managerial cost accounting system calculations.




2
  SSA receives an annual appropriation to fund the program and administrative activities of the Agency.
Each year, the SSA appropriation language stipulates the maximum amount of administrative expenses,
which may be incurred. This ceiling is termed the “Limitation on Administrative Expenses.” The LAE
prevents SSA from having an unlimited administrative budget from the Social Security Old-Age, Survivors
and Disability Insurance (OASDI) and Medicare trust funds, which finance administrative costs for OASDI
and administrative support for Medicare, respectively.


The Social Security Administration Cost Allocation Process (A-15-10-20151)                          E-7
3.7 For social insurance programs       Significance: Critical
such as the OASDI program,
program operating costs should be       Rating: Compliant
included in full cost
                                        The purpose for which CAS and the overall OCASS
                                        costing methodology exists is to define these costs of
                                        operations.
3.8 Costs related to property, plant,   Significance: Critical
and equipment should be included
in full cost                            Rating: Compliant

                                        The imputed cost of capitalized property, plant, and
                                        equipment are included in SSA’s managerial cost
                                        accounting system calculations.

Standard 4, Inclusion of Inter-Entity Costs requires entities to recognize, and include,
the full cost of goods and services provided to, or received from other entities. These
costs are to be included, regardless of the status of reimbursements provided, or
received.

           Requirement                                        Assessment
4.1 Full cost of material goods, or     Significance: Critical
services, provided by SSA to other
entities should be included in full     Rating: Compliant
cost
                                        SSA recognizes the full cost of goods and services
                                        provided to other entities, whether or not, or to what
                                        degree, reimbursement is received.
4.2 SSA’s full cost should              Significance: Non-Critical
incorporate the full cost of material
goods, or services, received from       Rating: Noncompliant
other entities
                                        SSA cannot verify that charges from other entities
                                        comprise the full cost of goods or services received.

                                        SSA enters into a small number of quid pro quo
                                        agreements with other external entities. There is no
                                        documented attempt, on the part of SSA, to determine
                                        the full cost of goods or services provided under these
                                        agreements.




The Social Security Administration Cost Allocation Process (A-15-10-20151)                       E-8
Standard 5, Use of Appropriate Costing Methodology is concerned with the costing
methodology used to assign costs to outputs. The full costs of resources that directly or
indirectly contribute to the production of outputs should be assigned to outputs through
costing methodologies that are most appropriate and should be followed consistently.

          Requirement                                       Assessment
5.1 Costs should be accumulated        Significance: Critical
by responsibility segment
                                       Rating: Compliant

                                       CAS data is gathered, calculated, and reported at the
                                       Responsibility Segment level of detail. In many
                                       instances, breakouts of cost below the Responsibility
                                       Segment level are available as well.
5.2 Costs should be accumulated by     Significance: Critical
type of resource such as costs of
employees, materials, capital,         Rating: Compliant
utilities, rent, etc.
                                       CAS accumulates costs by type. Salary, benefits, and
                                       other resources such as travel, rents, and supplies are
                                       included in CAS’ calculations.
5.3 Costs should be assigned to        Significance: Critical
reporting periods and outputs as
expenses                               Rating: Noncompliant

                                       As previously cited, CAS relies on budgetary accounts,
                                       rather than operating expenses, to allocate costs.
5.4 Costs of supporting services       Significance: Non-Critical
should be assigned to segments
that receive the services.             Rating: Noncompliant

                                       Although not in compliance with this particular
                                       requirement of the Standard, we find this a minor issue,
                                       and thus, “non-critical.” Each responsibility segment’s
                                       costs are assigned to SSA workloads. These costs are
                                       then assigned to program activities. Thus, all costs in
                                       CAS are ultimately assigned to program activities. CAS
                                       does not assign the costs of supporting responsibility
                                       segments (for example, the Offices of Human
                                       Resources, Finance, Systems) to operational
                                       responsibility segments (for example, the Offices of
                                       Public Service and Operations Support and Disability
                                       Adjudication and Review, DDS), which is the subject of
                                       this requirement.




The Social Security Administration Cost Allocation Process (A-15-10-20151)                     E-9
5.5 Costs should be assigned           Assessment: Critical
through:
a) direct trace,                       Rating: Noncompliant
b) cause-and-effect, or
c) allocating costs on a reasonable    SSA does use direct tracing to a large extent in
and consistent basis, and on the       allocating cost to program activities. However, to make
basis of activity (effort)             the final allocation to the Trust Funds, the cost allocation
                                       methodology uses benefit outlays as an allocation basis.
                                       SSA management could not provide an analysis that
                                       demonstrated that the use of benefit outlays, as the
                                       basis of assigning shared costs, manifests a suitable
                                       causal relationship between resources and outputs. We
                                       do not believe that benefit outlays represents an
                                       equitable cost assignment basis, as cost allocation is
                                       then driven by benefit amounts rather than the work
                                       performed. The use of benefit outlays as a basis for
                                       assigning shared costs unfairly assigns a greater portion
                                       of costs to programs with higher dollar benefit outlays,
                                       although SSA’s costs may not increase as a result of
                                       higher outlays. For example, a Retirement and
                                       Survivors Insurance (RSI) beneficiary receiving $1,000 a
                                       month does not consume more administrative costs than
                                       a Disability Insurance (DI) beneficiary receiving $500 a
                                       month.

                                       Alternatively, if Congress changes benefit entitlement
                                       amounts of a given program, the cost allocation would
                                       change even though the required work would remain the
                                       same. For example, if the DI monthly benefit was raised
                                       by 10 percent, the cost allocation methodology would
                                       shift more cost to the DI Trust Fund even though the
                                       administration of DI would remain the same.
5.6 Cost methodology should be         Significance: Critical
applied and improved consistently
                                       Rating: Noncompliant

                                       Although the CAS methodology has remained consistent
                                       and stable since inception in 1976, there is insufficient
                                       documented evidence that it has been revisited and
                                       updated in over 30 years. Since its inception, there have
                                       been significant changes in technology and SSA’s
                                       business processes as well as the implementation of
                                       Generally Accepted Accounting Standards for federal
                                       entities.

                                       It is critical that the CAS cost allocation methodology be
                                       revisited or updated to reflect changes in SSA business
                                       processes and Federal accounting standards. CAS
                                       became operational in 1976 and has continuously been
                                       modified to enhance functionality and automate data



The Social Security Administration Cost Allocation Process (A-15-10-20151)                    E-10
                                              feeds and processing; however, the cost allocation
                                              methodology has not been significantly changed. This
                                              failure to periodically revisit and update the cost
                                              allocation methodology may result in costing
                                              assumptions and cost factors that are no longer valid or
                                              accurate. Consequently, the equitable and appropriate
                                              allocation of administrative costs to the Trust Funds may
                                              be at risk.

                                              We fully appreciate that the Social Security Act, specifies
                                              that administrative cost allocations to the Trust Funds
                                              “. . . shall be made in accordance with the cost allocation
                                              methodology in existence on the date of the enactment
                                              of the Social Security Independence and Program
                                              Improvements Act of 1994 until such time as the
                                              methodology … is revised by agreement of the
                                              Commissioner and the Secretary….” 3 This clause
                                              implies that the cost allocation methodology is not
                                              permanently “etched in stone,” but rather can and should
                                              be revised as needed to ensure a continued equitable
                                              cost allocation. As the administrator of the SSA CAS
                                              and policy, it is incumbent upon OCASS to periodically
                                              review the cost allocation methodology and recommend
                                              to the Commissioner any feasible enhancements that
                                              should be made to improve the equity of the Trust Fund
                                              administrative cost allocation.




3
    Social Security Act, §201(g)(1)(D), ), 42 U.S.C. § 401(g)(1)(D).


The Social Security Administration Cost Allocation Process (A-15-10-20151)                          E-11
                                                                                                                                                                                                                   Appendix F

    Cost Analysis System Flowchart



                                                                                            SSA’s Cost Analysis System
                                                                                                            A
                                                                                                                                Payroll ODS Fields Used for Control Workyears Calculations:
                                                                                                                                                                                              • Overtime Pay
                                                                                                                 Payroll      • Admin Lease Used Hrs         • Cost Center Code               • Number of Pay Period
         Workload Processes                                  Flowchart Symbols                                                • Base Hrs Worked
                                                                                                                  Data                                       • Fiscal Year                    • Region Code                       CASRP
                                                                                                                              • Base Pay Object Class        • Hol Pay Hrs                    • Used Sick Leave Hrs
A - Control Workyear Processing                                                           Predefined                            Code                         • Lump Sum Leave Pay             • Used Time Off Awrd Hrs
                                    Document                   Manual
                                                                                           Process                            • CAS Org Code                                                  • Normal Leave Hrs
B - RC/Field Component Process                                Operation
C - PSC Component Process
D - ODIO Component Process            Multi-                                                                         Payroll        Organization Payroll Code:
                                                                                          Terminator
E - OEO Component Process           Document                                                                        Elements        FTP = Base Hrs Worked                                     Calculate         Calculate   Calculate
                                                                                                                calculated using    All Others = Admin Leave + Lump Sum + Leave +             Overtime            Total       Total
F - ODAR Component Process                                     Decision                                         Payroll Data from   Sick Leave + Award Hrs                                     Divisor           Hours      Workyears
G OMVE Component Process                                                                                             CASRP          OT = OT + Holiday
                                     Alternate                                              Process
H - DDS Component Process            Process
I - Staff Component Process                                                                                        CASRP loads the payroll data
J - SSA Level Processing                                    Direct Access                                          in and then processes using
                                        Data                                              Preparation                   payroll parameters
                                                               Storage


                                  Glossary of Terms
                                                                                                                                               PayODS Raw
                                                                                                                  Control
                                  ACTEST – Actuals & Estimates (Estimates are no longer done in the CAS.)                                         Data
                                                                                                                 Workyears
                                                                                                                                                 Storage




    The Social Security Administration Cost Allocation Process (A-15-10-20151)                                                                                                                                                          F-1
                                                                                                           Control
                                                                                                          Workyears




B                                     C                                                                                                               H                         I
                                                                  D               E                                            F          G

      WMT (Formerly
                                                                                        WMT             WERS                                                                                      OQA Excel       Payroll
          IWMS)                              PCMI                                                                                                          FD15
                                                                                      Interface       Interface                                                       SAOR           RAS          Spreadshe      ODS (Staff
      (DO/BO & TSC                        (Workload                                                                                                       Report
                                                                                                                                ODAR       OMVE                      (counts)        Reports      et for 7200    Componen
         Workload                          Counts &                                                                                                       (wkyrs)
                                                                                                                                Excel      Excel                                                    Tallies         ts)
        Counts and                         Samples)                                                                   Open
                                                                         PCMI                  OEO                             Spreadsh   Spreadsh
    Samples by Region)                                                                                              Pending
                                                                      (Workload              Process                             eets       eets
                                                                                                                    (Actuals
                                                                       Counts &              Initiation
                          SDX data                                                                                from OEO)
        WMT DO/                                                        Samples)                                                                                                       Office of
                         and SSIPT                      SPIKE
        BO & TSC                                                                                                                                                                     Systems
                           data for                     CIRHBA
        Workload                           PSC Excel                                                                                                   DDS (a.k.a.                     Excel
                          workload                      Special
         Counts                           Spreadsheet                                                                                                 DSA) Dataset                  Spreadsheet
                           counts                       Counts                                 OEO
          and                                                                                                                                        (AIS.P2949.FC
                             and                                                              Dataset
        Samples                                                                                                                                         AS.DDS)
                          samples                                                           (AIS.P2949.
                                                                                            FCAS.OEO)




                                                                                                                      CASRP




The Social Security Administration Cost Allocation Process (A-15-10-20151)                                                                                                                                      F-2
                CASRP



                                                                J




                Final
                                                                    WMT                             MSSICS
              Component
                PICAs

                                                                                                             Reports found on the Intranet:
                                                                                                             • On-Request Stmt Rprt
                                                                                                             • Title II Redesign Statistics Rprt (2)
                                                                                                             • National Rprt of Overpayment
 NO                                                                               SSA Level
                                                                                                               Actions
                                                                              Processed Counts
                                                                                                             • EMIS RZ SDO Rprt Exec Summary
              Is the PICA                                                       (Excel Sheet)
                                                                                                             • EMIS LI SDO Rprt Exec Summary
               Data OK?                                                                                      • ROAR OC210 Rprt
                                                                                                             • SSA – Initiated Stmt Rprt
                                                                                                             • Enumeration Completed Workload
                     YES                                                                                       Counts National Report
                                                                                  SSA Input
                                                                                  Worksheet
             Data Ready for
      Main PICA process, then SSA
                                          ACTEST
      Level process, and Main CAS
              Data Release



                                                                                                               Reports provided through e-mail or
                                                                           A .csv file is prepared for         Interoffice mail by the Office of Research,
                                                                           uploading into the CAS.             Evaluation & Statistics (ORES):
                                                                                                                • Table 1-A Supplement
                                                                                                                • Table 1-A for OASI, DI, HI, & SMI
                               Main CAS




                                                                                  Datasets
                                                                          (TRC.TR.TALLY.RYYMMDD)
                                                                          (ACT.CS.AERO.RYYMMDD)
                                                                                                                  Reports provided through e-mail or
                                                                                                                  interoffice mail by the Office of
                                                                                                                  Systems (OS):
                                                                                                                   • Initial Claims & Post
                                                                                                                     Entitlement
                                                                                                                     Transmission Update
                                                                                                                   • Rep Payee Rprt




The Social Security Administration Cost Allocation Process (A-15-10-20151)                                                                                   F-3
                                                                                         Appendix G

           Agency Comments




                                          SOCIAL SECURITY

MEMORANDUM
Date:      October 14, 2011                                                                   Refer To:   S1J-3
To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “The Social Security Administration Cost
           Allocation Process” (A-15-10-20151)--INFORMATION

           Thank you for the opportunity to review the subject draft report. In your May 4, 2010 start
           notice, you indicated you would be conducting four separate reviews of our Cost Analysis
           System (CAS). This is the third in your series of four reports.

           Because of the interrelationship of all four reviews, we determined at this time it is premature to
           comment or respond to your recommendations. Once we receive the results of all your CAS
           reviews, we will provide consolidated comments and responses to your recommendations.

           Thank you for the opportunity to review the draft report. Please let me know if we can be of
           further assistance. You may direct staff inquiries to Frances Cord at (410) 966-5787.




           The Social Security Administration Cost Allocation Process (A-15-10-20151)
                                 DISTRIBUTION SCHEDULE


Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Ref
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
